<html>
<title> - EPA MISMANAGEMENT, PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                      EPA MISMANAGEMENT, PART II

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2015

                               __________

                           Serial No. 114-36

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-080 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
  William McGrath, Staff Director of the Subcommittee on the Interior
            Ryan Hambleton, Senior Professional Staff Member
                        Melissa Beaumont, Clerk
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2015....................................     1

                               WITNESSES

Mr. Ronald Harris, Equal Employment Opportunity Specialist 
  Officer, U.S. Environmental Protection Agency
    Oral Statement...............................................     7
    Written Statement............................................     9
Ms. Carolyn Bohlen, Chief, Enforcement Services Section #2, 
  Superfund Division, U.S. Environmental Protection Agency
    Oral Statement...............................................    18
    Written Statement............................................    20
Mr. Ross Tuttle, Senior Advisor, U.S. Environmental Protection 
  Agency
    Oral Statement...............................................    27
    Written Statement............................................    29
Ms. Karen Kellen, President, American Federation of Government 
  Employees Council 238
    Oral Statement...............................................    45
    Written Statement............................................    47
The Hon. Gina McCarthy, Administrator, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    81
    Written Statement............................................    84

                                APPENDIX

Statement of the National Treasury Employees Union, entered by 
  Chairman Chaffetz..............................................   119
Statement of Ms. Cynthia Colquitt, entered by Chairman Chaffetz..   120
Statement of Ms. Deborah Lambery, entered by Chairman Chaffetz...   123
U.S. Army Corps of Engineers Memos on ``Waters of the United 
  States'' Rule, entered by Chairman Chaffetz....................   135
EPA Responses to Questions for the record, entered by Chairman 
  Chaffetz.......................................................   261

 
                       EPA MISMANAGEMENT, PART II

                              ----------                              


                        Wednesday, July 29, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Jordan, Walberg, Amash, 
Gosar, Gowdy, Lummis, Massie, Meadows, DeSantis, Buck, Walker, 
Hice, Carter, Grothman, Hurd, Palmer, Cummings, Maloney, 
Norton, Lynch, Connolly, Lawrence, Watson Coleman, Plaskett, 
DeSaulnier, and Welch.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    The title of today's hearing is about the EPA 
mismanagement. This is the second hearing we have had. We had 
one back in April. And once again we find ourselves at a 
hearing examining the management failures at the EPA.
    Allegations before us today are disturbing and sound 
strikingly similar to a hearing this committee held just a few 
months ago. In April, we discussed Peter Jutro, the former EPA 
manager who had a history of serial harassment. Mr. Jutro 
harassed at least 16 women, with 13 of them filing formal 
complaints of misconduct to management. These reports, 
unfortunately, fell on deaf ears. In fact, EPA leadership 
continued to promote Mr. Jutro even though he continued to 
harass his female coworkers.
    The EPA Office of Inspector General launched an 
investigation in August of 2014 into alleged acts of sexual 
harassment by Peter Jutro. During the course of its 
investigation, the EPA OIG corroborated the sexual harassment 
of a 21-year-old female intern at the Smithsonian and uncovered 
other allegations of Jutro's sexual harassment of female EPA 
employees throughout his 31-year career at the agency.
    Senior officials at the EPA may have known about Mr. 
Jutro's misconduct prior to the intern incident, but it did not 
take necessary steps to corroborate that information while 
promoting him to the Acting Associate Administrator position in 
February of 2014. They failed to contact Mr. Jutro's direct 
supervisor, who knew of the allegations against Mr. Jutro, and 
verbally counseled him on multiple occasions for inappropriate 
behavior. When the EPA inspector general attempted to interview 
Mr. Jutro a second time, the Agency allowed Mr. Jutro to 
retire, blocking the OIG from pursuing the investigation 
further.
    The deep concern here is that--people are going to do 
stupid things. That is going to happen. We are a very forgiving 
society. But when you have somebody who repeats this behavior 
that is absolutely and totally unacceptable and does so time 
and time again, there needs to be consequences, not promotions. 
And it is of deep concern to this committee, to this Congress, 
on both sides of the aisle, that when these things are brought 
forward, that they are dealt with.
    The situation that we are dealing with here today is 
another very unfortunate situation, to say the least, of a 
young woman who was harassed. And then it was compounded by the 
fact that the people who were trying to investigate it and hold 
people accountable were retaliated against.
    So today we are discussing new allegations of sexual 
harassment along with employer retaliation in EPA's Region 5 
Chicago office. Sadly, this incident is almost identical to the 
Jutro situation. Here a 24-year-old research fellow is the 
victim of a sexual harassment by a 62-year-old employee by the 
name of Paul Bertram. The victim in this case--and I would 
admonish our members here and the people that are on the panel 
today, we do not want to refer to this victim by name. She 
deserves our utmost respect. I do not want you to use her name. 
Call her the victim, Intern X, but we are not to use her name 
in this hearing here today. We are trying to protect her 
identity. She deserves better in her young career as she is 
starting forward.
    But in her statement, when she put forward what she went 
through, the way she described it is this perpetrator, Mr. Paul 
Bertram, inappropriately hugged her, rubbed her back, grabbed 
her, rubbed her hands, touched her knees, kissed her, made 
suggestive comments, and engaged in unsolicited physical and 
verbal contact. This happened countless times over a period of 
years. The consequence? They moved the 62-year-old's cubicle. 
That was one of the consequences.
    Unfortunately, he had a history of this. This was not just 
the first time. This was not just an isolated incident. What we 
are going to hear today is this had happened several times 
before. And when it happens, you have got to deal with it and 
protect, in this case, the young women in the office because it 
creates such a toxic environment.
    The overwhelming majority of people at the EPA, the 
overwhelming majority of people that work in our Federal 
Government, they are good, honest, decent people. They do not 
do this. But it taints the whole atmosphere. In fact, one of 
the most toxic environments we have is at the EPA. How ironic. 
The mission of the EPA is to protect the environment, protect 
the people. The problem is the EPA does not protect its own 
employees.
    And we have got good people here today who are in a 
position to do something about it. They did. They did their 
work. But then they were retaliated against. That only 
compounds it and makes it worse.
    Our witnesses today believe the EPA management in Chicago 
retaliated against the employees who investigated the victims' 
accusations of sexual harassment. Three of these employees are 
testifying today--three of them. This is not just one person 
saying: Oh, I was singled out. Three of them. And there are 
more. I applaud them for being brave enough to come before this 
committee today and to tell their story.
    Other employees have submitted written testimony. And one 
passage from Ms. Deborah Lamberty--I hope I pronounced her name 
properly--is a perfect example of what these employees are 
facing, but it is so fundamentally wrong at every level. And I 
read from what she wrote: ``Retaliation is not always loud and 
full of itself. It can be quiet and chilling, the soul-crushing 
kind, the kind that leaves you alone in your cubicle in tears 
in the middle of the day.''
    That is so wrong. We would be deficient in our jobs if we 
did not highlight this. We are here to help solve this. We are 
Oversight, but we are also Government Reform, and if we have to 
keep doing this, we are going to keep doing it. But if we do 
not shine the light on it, it is not going to get solved. 
Something is wrong when multiple employees come to Congress and 
attempt to get attention of the EPA management.
    I would like to enter into the record, I ask unanimous 
consent to enter into the record a letter from the National 
Treasury Employees Union, somebody I do not always agree with. 
On July 1 of 2015, they wrote this letter to myself and Mr. 
Cummings, the ranking member.
    I will read one sentence from it. ``Our trust and 
confidence in the EPA leadership has sunk to an abysmal level, 
and we respectfully submit to you that more remains to be done 
in order to correct this unacceptable situation.'' I ask 
unanimous consent to enter this into the record. Without 
objection, it is so ordered. Thank you.
    High-performing employees, people who are optimistic about 
their country, passionate about their work, concerned about 
their environment, trying to do a patriotic job, earn a living, 
and support their family, it is so discouraging when they see 
management rewarded for bad behavior and ignoring clear signs 
of misconduct.
    Like I said, this is not common. It is not regular. But 
when it does happen, every red flashing light in the building 
better go off at every level in Washington, D.C., in Chicago, 
and other places, and there can never be the retaliation like 
we are about to hear today.
    Again, I want to be careful about the treatment of this 
young woman. Please refrain from using her name. I look forward 
to having this hearing here today.
    And I now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I 
associate myself with your words. I must say, Mr. Chairman, as 
a husband and as the father of two beautiful daughters, as a 
brother with three sisters, and with a son, being a son of a 
beautiful mother, I want to thank you for holding this very 
important hearing today.
    First, I want to welcome the whistleblowers who are 
testifying on our first panel. They have some very troubling, 
very troubling allegations. In short, they assert that an EPA 
official in Region 5 sexually harassed an intern and several 
other women, that managers in that region tried to cover up 
this activity, and that they were retaliated against after they 
tried to expose this wrongdoing. Those are some very, very 
strong and painful and unfair and unfortunate allegations.
    The three whistleblowers here today are the former heads of 
the Offices of Human Resources and Civil Rights in Region 5, as 
well as the Equal Opportunity Employment manager there, holding 
very responsible and significant positions. I want to thank 
each of them. I know how hard it is to come forward in this 
public forum and to testify before the United States Congress 
and put yourselves out there, not only to this committee, but I 
am sure to a C-SPAN audience.
    Our committee respects whistleblowers, and I say that 
without hesitation. And I can tell you that on both sides of 
the aisle we have done everything we know how to protect 
whistleblowers, and we will continue to do everything in our 
power to ensure that all valid claims are thoroughly 
investigated and remedied.
    Let me also welcome Ms. Kellen. She represents the 
employees union, and their core goal is to protect the rights 
and interests of hard-working and dedicated Federal employees 
across the Federal Government.
    We welcome you, Ms. Kellen.
    And I have been a strong advocate whenever Federal 
employees have been talked about in a negative way, I have been 
one who has constantly reminded all of us up here that we are 
also Federal employees.
    Finally I welcome Administrator McCarthy, who will testify 
on our next panel. Although the activities at issue today 
happened before she became the EPA Administrator, we are happy 
Ms. McCarthy is going to be here, and we thank her for her 
service.
    Sexual harassment is intolerable and has no place in the 
Federal workplace. Let me be clear on that. Sexual harassment 
is intolerable and has no place in the Federal workplace. That 
statement may seem obvious, but it is still worth saying.
    In this case there seems to be an agreement that on March 
2, 2011, a little more than 4 years ago, an intern reported 
that an environmental scientist in Region 5 had sexually 
harassed her in that office. Based on the limited information 
we have, it appears that managers acted quickly in response to 
this incident. The branch chief notified his supervisor, sought 
guidance from human resource officials, and informed them about 
a prior incident about 7 years earlier.
    In turn, the human resource officials provided guidance, 
gave him a draft letter of reprimand, and urged him to move 
quickly. They met with the individual, who admitted that he: 
``crossed the line.'' They issued a Notice of Proposed Removal, 
and he left the Agency in June of that year.
    Unfortunately, that was not the end of the story. Our 
witnesses here today also allege that officials in Region 5 
retaliated against them for investigating this matter.
    Allegations of whistleblower retaliation are very serious, 
and they deserve to be fully investigated, and substantiated if 
they are true, but that has not happened yet. Essentially, so 
far we have only one side of the story. Our committee has not 
interviewed many of the people involved in this case, we have 
not requested relevant documents from the Agency, and the 
inspector general has not investigated these allegations.
    Mr. Chairman, in order to respect the rights of all Federal 
employees, I recommend that this committee either initiate an 
investigation and a thorough investigation of these retaliation 
allegations or that we ask the inspector general to do so, and 
I would join you today in making that request. These 
whistleblowers deserve their claims to be taken seriously and 
to be investigated thoroughly.
    Finally, I believe that Congress needs to enhance the laws 
against discrimination and abuse rather than watering them 
down. Let me say that again. Congress, we folks up here, need 
to enhance laws against discrimination and abuse, rather than 
watering them down.
    For example, right now, current law does not prohibit 
sexual harassment or discrimination against unpaid interns or 
others who are not paid directly by an agency. Something's 
wrong with that picture. These are young people who come here 
trying to walk into their destiny, trying to get experience, 
working for free, sometimes from 9 to 5, 9 to 10, simply trying 
to be all that God meant for them to be. It appears that some 
of the victims in this case may have fallen into this category.
    In order to close this loophole, yesterday I introduced 
H.R. 3231, the Federal Intern Protection Act. This legislation 
is one that our entire committee should be able to support, and 
I hope that all of my colleagues will join in cosponsoring the 
bill.
    In addition, the House of Representatives recently took up 
my bill, H.R. 1557, the Federal Employees Antidiscrimination 
Act, which I introduced earlier this year. The House passed 
this legislation by a resounding, bipartisan, unanimous vote of 
403 to 0. And I want to thank the chairman for joining me in 
cosponsoring that bill and supporting it. I hope we can work 
together again to press the Senate to act quickly on that bill.
    What we should not do, however, is strip away existing 
Federal civil service protections, as some of my colleagues 
have proposed. That is going in the wrong direction. And I 
respect many of our witnesses today--I would suspect that they 
would strongly agree with me.
    Again, Mr. Chairman, I want to thank you, and on behalf of 
all of those people who come to work for our Federal 
Government, who simply want to be the best that they can be, 
who simply want to be about the business of giving their blood, 
sweat, and tears to the public and making the public a better--
place them in a better position, we say to you and to our 
whistleblowers, we will do every single thing in our power to 
protect you. And I say that, I am sure, for this entire 
committee.
    And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
member who would like to submit any written statement.
    We would now like to recognize our first panel of 
witnesses. And I want to say at the onset, we do appreciate 
these people being here. This is not common to come testify in 
front of Congress, as we have many people that come on a 
regular basis. These are people that are serving on the front 
lines and doing the good work for this country, and we thank 
them for being here.
    We are pleased to be joined by Ronald Harris, who works at 
the U.S. Environmental Protection Agency. He is served at the 
EPA for 26 years in such positions as property supply 
specialist, grant specialist, labor relations specialist, and 
EEO manager. Mr. Harris was reassigned to unclassified duties 
at the Employees Services Branch in the Health and Safety 
Office. We look forward to hearing his comments.
    We appreciate, as I read your bio, your participation and 
your service in the United States military. We thank for that 
service as well.
    We have Carolyn Bohlen.
    Did I pronounce that properly?
    Dr. Carolyn Bohlen is a distinguished manager and 
supervisor with more than 30 national and regional awards over 
her 28-year career at the EPA. Her awards range from 
Outstanding Achievement in Equal Employment Opportunity, 
presented by Susan Hedman, to the Federal Manager of the Year 
Award. She has quite a distinguished career, and we are honored 
that she is here with us today.
    Mr. Ross Tuttle is also with us here. He began his career 
in the EPA in 2009 as a human capital officer, a senior manager 
position for Region 5. He currently works in Region 6 as a 
senior supervisor to the regional administrator.
    We also, as I read your bio, I thank you for your service 
in the United States military as well.
    Karen Kellen is joining us. She currently serves as the 
President of the American Federation of Government Employees 
and is an enforcement attorney for the EPA.
    And we thank you again for being here with us today.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you would please rise and raise your 
right hand.
    Thank you.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion and the fact that 
panel two will include the EPA Administrator, we would 
appreciate it if you would limit your verbal comments to 5 
minutes. Your entire written statement will be entered into the 
record, and as we go through the hearing today, if there are 
additional comments, information that you would like to provide 
to the committee, we would obviously welcome that on a timely 
basis.
    But if you could please limit your comments to 5 minutes. 
We will start with Mr. Harris and go down the line. And then 
after that we will go to the question section.
    Mr. Harris, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF RONALD HARRIS

    Mr. Harris. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and other distinguished members of the committee. My 
name is Ronald Harris. I am an EEO employee and specifically an 
EEO specialist located in the Region 5 Chicago, Illinois 
office. Thank you for inviting me to submit a statement for the 
record with regard to sexual harassment, discrimination, and 
retaliation that took place in the Region 5 Chicago office by 
several EPA managers, the highest level managers within various 
divisions in the region.
    I also would like to thank my attorney, Mr. Waite Stuhl, 
for his tireless efforts in representing me with regards to the 
issues I endured in this 4-year battle with the Agency.
    I watched the EPA hearings titled ``EPA Mismanagement'' 
streamed on April 30 of 2015 before this same committee and was 
literally sickened to see the stories depicted were so similar 
to mine with regard to the following: Sexual harassment, the 
length of the harassment, and the regional coverup about these 
blatant and willful discriminatory activities by management 
officials. After viewing the hearing, I was more determined 
than ever to share my experiences as it related to the similar 
scenario within the EPA.
    Ironically, I am here before you again, as I offered 
testimony before the 106th congressional committee nearly 15 
years ago. The issues that were prevalent then are similar 
issues that I appear before you today to discuss.
    During the opening statement of the 106th Congress by 
Chairman Sensenbrenner, he stated: ``Retaliating against those 
who speak out against the Agency is not acceptable. Failing to 
enforce EPA disciplinary policies against those who are found 
to discriminate or harass is not acceptable. All of these 
actions send a message to EPA employees not to speak out, not 
to engage in public debate, and not to dissent against the 
Agency.''
    He further stated: ``The EPA managers or officials that 
have been found to discriminate, harass, and intimidate other 
EPA employees or the public should be disciplined. This does 
not appear to happen.''
    I chose to highlight Chairman Sensenbrenner's prior quotes 
to use in this opening statement today because very little has 
changed within the EPA management culture, Region 5 office, 
despite the fact that these statements were made a decade and a 
half ago. This lack of change has a direct correlation to the 
absence of accountability. To expect change without 
accountability is wishful thinking at its best.
    The regional office has chosen to offer the reward for 
going along to get along over accountability. In Region 5, this 
type of managerial mentality strengthened resistance and 
animosity toward change because the sentiments spoken by 
Chairman Sensenbrenner in the 106th Congressional were viewed 
as oppositional.
    To further illustrate this point, the over 500 documented 
pieces of evidence I provided to this committee reveal that 
when I and Dr. Bohlen followed Agency protocol and reported 
allegations of sexual harassment activity towards female 
interns to the EPA Washington headquarters office, we 
discovered, through our investigation as EEO officers, had been 
going on for at least a decade and involved more than a dozen 
women. And we were immediately retaliated against by Mr. Bharat 
Mathur, assistant regional director, and removed from our 
positions in the Office of Civil Rights for following Agency 
protocol and contacting headquarters.
    Despite the fact that Mr. Mathur had a legal obligation to 
prevent discriminatory activity within Region 5, he was 
rewarded with a $35,900 award approved by Washington 
headquarters to further supplement his $179,000 annual salary. 
This award given to Mr. Mathur was approved by the Region 5 
administrator, Susan Hedman, and management officials within 
the EPA Washington headquarters as well had to make this 
approval.
    Other Region 5 senior managers who were also named 
participants in these discriminatory coverups and retaliatory 
activities also received awards approved by both Regional 
Administrator Hedman and Assistant Regional Administrator 
Mathur. These monetary awards should have to be repaid to the 
government so that the earlier statements made by Chairman 
Sensenbrenner and further echoed by this honorable committee 
today will send a strong message: That discrimination and 
retaliation does not pay and there must be accountability.
    Another claim that I mentioned in 2000 to the 106th 
congressional committee was that Region 5 and EPA lacked an 
Agency process for dealing with managers who retaliated and 
discriminated against regional employees. Three years later, in 
2003, in a U.S. GAO report to Congress entitled ``Environmental 
Protection Agency: Continued Improvement Needed in Assessing 
Equal Employment Opportunity,'' on page 15 stated that the 
``EPA had no formal process to discipline managers found for 
discrimination.''
    Further, on page 16 of this same report, the GAO concluded: 
``Accountability is the cornerstone of results-oriented 
management. Because EPA's management sets the conditions and 
terms of work, they must be accountable for providing fair and 
equitable workplaces, free of discrimination and reprisal.''
    By implementing the 2003 U.S. GAO report, this honorable 
committee can send another strong message: That the word 
``accountability'' applies to these management officials too.
    [Prepared statement of Mr. Harris follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Chaffetz. Thank you. We will put your entire 
statement into the record. Thank you.
    Mr. Harris. Thank you, Chairman Chaffetz.
    Chairman Chaffetz. We have questions, so we want to get to 
your questions. Thank you.
    Mr. Harris. Thank you.
    Chairman Chaffetz. Dr. Bohlen, you are now recognized for 5 
minutes.

                  STATEMENT OF CAROLYN BOHLEN

    Ms. Bohlen. Good morning, Committee Chairman Chaffetz, 
Ranking Minority Member Cummings, and esteemed congressional 
committee members. I appreciate the invitation to speak before 
this illustrious committee this morning to discuss my 
experiences with regard to the violations of the Title VII 
Civil Rights Act of 1964 and Section 501 of the Rehabilitation 
Act of 1973. Unfortunately, I was subjected to these violations 
at the behest of the EPA Region 5 administrator, Ms. Susan 
Hedman, and her former deputy administrator, Mr. Bharat Mathur, 
the two highest level managers in the region.
    In God I trust that my testimony today, along with that of 
my colleagues present here this morning, will not result in 
further retaliation. We have the courage to speak before you, 
acknowledging that we have undergone 4 years of turmoil and 
consternation as a result of performing the requirements of our 
jobs. The actions waged against us were, indeed, an 
infringement of our civil rights and an embarrassment to the 
Agency at large.
    I want to acknowledge and thank Mr. Waite Stuhl, my legal 
counsel, who is here with us today. My testimony is not 
intended to diminish or tarnish the meaningful work that many 
Region 5 employees, supervisors, and managers engage in on a 
daily basis to ensure that the air that we breathe, the water 
that we drink, and the land in which we live is safe for us 
all. I have devoted my career and efforts as a manager to the 
mission of the EPA. I will note that I am the recipient of the 
Regional Administrator's Award for Excellence, which was 
presented by Susan Hedman in June 2010, for outstanding 
achievement in EEO through redesigning the Region 5 Mentoring 
Program. I also received the national prestigious Manager of 
the Year Award from the Federal Managers Association in 2010 as 
well.
    Nevertheless, I will speak about the office bullying, 
mismanagement, and retaliation that I was subjected to while 
serving as director of the Office of Civil Rights from 
September 12, 2010, to July 31, 2011. My life and professional 
career was disrupted to the point that I had to file a formal 
discrimination complaint against the Agency in September 2011. 
The complaint was based upon the overt discrimination practices 
that were perpetrated against me and my staff during that 
period.
    On August 23, 2010, I was selected by Ms. Hedman and Mr. 
Mathur to provide my leadership and assistance in restructuring 
and redirecting Region 5's OCR. As my personnel records 
indicated, I was reassigned as the director of the Office of 
Civil Rights.
    Mr. Mathur had been the second-in-line supervisor for the 
OCR for several years. The office had been grossly mismanaged, 
and Mr. Mathur asked that I clean it up. He asked me what it 
would take for me to consider the job. I remarked that it would 
take a GS-15 for me to undertake the challenge. I explained to 
Mr. Mathur that I was a person with a disabling condition and 
with documented reasonable accommodations. Both Mr. Mathur and 
Ms. Hedman were eager for me to start the job, and they thanked 
me for accepting it.
    Although my effective date was September 2010, I began 
working in August of 2010. I worked two jobs simultaneously. 
Mr. Ronald Harris was the EEO officer and the highest-
performing employee in the OCR. We worked long, arduous hours 
developing overdue reports, preparing strategic 2- and 3-year 
plans, and I rewrote existing manuals, prepared Special 
Emphasis events, while reorganizing and restructuring each 
group.
    The work was grueling. The office was understaffed and 
lacking resources. I repeatedly informed Mr. Mathur of the 
staff shortages. Mr. Mathur continued to give me assignments. 
Some were not related to OCR, like being made to prepare 
speeches for him and Susan Hedman, which is very odd, 
especially since they had two speechwriters dedicated to them.
    The work was unrelenting, and with computer work and 
extensive writing, I made Mr. Mathur aware that I had begun to 
experience serious pain in my neck, shoulders, and back.
    In January 2011, Ms. Cynthia Colquitt, a former employee of 
OCR, came to us on a detail. She did an excellent job. Ms. 
Colquitt went on to receive the Region 5 Administrator's 
Professional Award.
    They staged a show to support OCR, but did not take the 
time to discuss the 2010 Regional Workforce Status and Analysis 
Report, which illustrated the participation rate of general 
schedule grades by race, ethnicity, and sex. It showed the full 
and part-time trends which demonstrated and impacted the racial 
makeup of the region as compared to EPA nationally and compared 
to the national civilian labor force.
    Mr. Mathur and Ms. Hedman cancelled both meetings with the 
EEO Office on three different occasions. When Mr. Mathur was 
asked why we are postponing the meetings, he laughingly 
responded to Mr. Harris and I and said, ``This meeting is 
cancelled indefinitely,'' and he walked away from us and closed 
the door.
    It was apparent that these managers who set the tone for 
the region failed to embrace diversity and the principles of 
EEO in their leadership roles. The chances of addressing upward 
mobility initiatives and advancement of qualified minorities to 
higher graded positions was a moot point with them.
    [Prepared statement of Ms. Bohlen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Chaffetz. Dr. Bohlen, thank you. We have your full 
written statement, and we want to get to the questions.
    Ms. Bohlen. Okay.
    Chairman Chaffetz. We are going to run short on that. So we 
are going to elect to err on the side of having more times for 
questions.
    Mr. Tuttle, you are now recognized for 5 minutes. And 
remember, you can summarize this. We have got the full written 
statement.
    Mr. Tuttle is now recognized for 5 minutes.

                    STATEMENT OF ROSS TUTTLE

    Mr. Tuttle. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, distinguished members of the committee. Thank you for 
this opportunity to come and address you today.
    My name is Ross Tuttle. Since January of 2014, I have been 
employed as senior advisor to the assistant regional 
administrator in EPA Region 6, Dallas, Texas. Prior to this 
reassignment, from September of 2009 to January of 2014, I was 
employed as the human capital officer at EPA Region 5 in 
Chicago.
    I appreciate this opportunity to testify in front of you 
today, and I do so with a significant amount of trepidation, 
despite my belief that it is the right and proper thing to do. 
I can concur in what my colleagues have said with regard to the 
sexual harassment that took place of the interns. I 
investigated that case, as well, from the administrative side 
in human resources and found in my investigation that that went 
back with that perpetrator. And I stopped my investigation and 
stopped taking statements at the year 2000, and this was in 
2011 that this was brought to my attention. So I can concur in 
that.
    When I got stonewalled after the perpetrator was allowed to 
retire, and I decided I was going to pursue action against 
members of management that had concealed this for so many 
years, to use a phrase, EPA management circled the wagons and 
stonewalled me, and I was not able to pursue that at all. And I 
believe firmly that that did a significant amount of damage to 
my reputation in Region 5.
    There were other incidents that I had to deal with in 
Region 5 that are included in my statement that I shared with 
the committee on other actions where I was not well received 
and was, in fact, treated with less than a cordial amount of 
professional respect for what I was doing. And that led me in 
April of 2013 to file a complaint against my division director 
at the time, Cheryl Newton, who was the assistant regional 
administrator in Region 5 in Chicago. That was settled, but 
then I was reassigned to Region 6 in Dallas, Texas, and the 
retaliation continued in Region 6 in Dallas.
    My position as the senior advisor to the assistant regional 
administrator should be one of significance in that I am 
providing guidance and advice to the ARA in his job. From a 
human capital standpoint, I am responsible for providing him 
advice on differing issues that are important to him so that he 
knows what actions to pursue.
    In actuality, in the time that I've been in Dallas, I've 
had only two assignments that would be considered respectful of 
my expertise and my grade. One of those was to coordinate the 
early buyout program for Region 6 that was initiated in 
November of 2013. Based on the way that should work, that would 
have been a significant project. In actuality, the only thing I 
ended up doing there was coordinating applications, a list of 
applications that came in from people that were eligible, and I 
did the final wrap-up report that is provided to the Office of 
Personnel Management.
    The other assignment that should have been significant as a 
follow on to the early buyout was a reorganization and 
restructuring of Region 6. And, again, the way that should have 
worked, that would have been a significant undertaking. I was 
assigned initially to chair a regional reorganization work 
group that was supposed to evaluate options and bring 
recommendations to senior management.
    In actuality, the only thing I did there was sit on a work 
group as a panel member along with two of my colleagues from 
human resources who were not allowed to participate in those 
meetings. Management did what they wanted to do with those. And 
I ultimately ended up only looking over packages, the packages 
that were put together to submit to our headquarters. I just 
looked them over to make sure that the right forms were there 
and the signatures were there.
    Since that is been completed in early April of this year, 
I've had no meaningful assignments at all. And as in my 
statement, I've told you how my ARA approached my midyear 
evaluation and what my plans are. Because I signed a 
modification agreement to protect myself and not have me go 
back to Region 5, to that environment I was in, that now 
essentially compels me to retire in December of this year, an 
action that was unpalatable then, as now.
    Thank you for the opportunity.
    [Prepared statement of Mr. Tuttle follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Chaffetz. Thank you.
    Ms. Kellen, you are now recognized for 5 minutes.

                   STATEMENT OF KAREN KELLEN

    Ms. Kellen. Chairman Chaffetz, Ranking Member Cummings, 
thank you for inviting me to testify today. I have worked at 
the EPA for 28 years, the last 2 as the president of AFGE 
Council 238. Council 238 is the largest union at the EPA. We 
represent about 8,500 employees.
    EPA is an agency of proud and dedicated civil servants with 
a strong work ethic. However, bad management practices have 
become routine, causing everyday duties to become stressful and 
difficult. This hinders the Agency's ability to function 
effectively and efficiently.
    There is a double standard in which the rank-and-file 
employees accused of lesser offenses are often treated harshly, 
while managers who bully and harass their employees are 
rewarded with promotions and large bonuses. Allow me to present 
some examples.
    First, I will speak to the aftermath of the testimony 
before this body on the misconduct of Peter Jutro, who was 
accused of sexually harassing multiple female EPA employees. 
After that testimony, EPA held an all-hands meeting with his 
staff to discuss the testimony. Staff were encouraged to speak 
freely, but as information was shared, it became clear that EPA 
senior management did not want to hear about the extent of the 
harassment. They attempted to limit the input by stating that 
Peter was not here to defend himself. Management chose to 
defend the indefensible rather than addressing the serious 
allegations of misconduct.
    Another incident involves a former employee who had a 
stellar work record and an international reputation in the 
scientific community. Upon her division director's retirement, 
her new manager was appointed using Title 42 authority. Title 
42 positions are intended for short-term consultants with 
specific expertise. EPA has been using this authority to hire 
managers.
    Soon after his arrival, the new manager began to harass and 
bully the employee. He cancelled previously approved speaking 
engagements at scientific conferences, even though it was part 
of her job and there was no cost to the agency, while allowing 
the men in the office to continue to pursue these endeavors.
    After months of this behavior, she filed an EEO gender 
claim. The manager was not deterred, but was emboldened to try 
to find a way to have her removed from Federal service. EPA 
searched her desk and her email in an effort to manufacture 
ethical violations relating to conference travel and planning 
activities. EPA then fabricated charges and proposed to remove 
her from service. Despite the lack of any threat on her behalf, 
they escorted her out of the building with a specially hired 
armed guard. The employee was forced to hire an attorney to 
defend herself.
    The Agency ultimately reduced the termination to a 2-month 
suspension. When she returned to the office, the harassment 
intensified. This employee ultimately found new employment as a 
full professor with an endowed tenured seat at a major U.S. 
university.
    Her EEO case went to trial in June of this year. After a 5-
day trial, the 12-person jury took less than 2 hours to return 
a verdict in her favor. They found that the Agency had 
retaliated against her and awarded her back pay and substantial 
compensatory damages.
    It is not easy to fight the full force of the Federal 
Government. This woman had to refinance her home and tap into 
her retirement account to pay for the legal costs. While she 
prevailed in court, EPA lost a valuable employee, and those 
responsible for this reprehensible behavior have never been 
held accountable.
    These are not isolated instances, just specific accounts of 
systematic breakdown. The Agency has too many managers at 
senior levels who regularly bully and harass employees.
    Today, I ask Administrator McCarthy to stand with the good, 
hard-working employees of the EPA and work with the unions to 
address the harassment, bullying, and retaliatory behaviors 
within EPA.
    Finally, I ask the members of this committee to distinguish 
between the very public problems that you are hearing about and 
the vast majority of EPA employees, both staff and managers, 
who want nothing more than do a good job for the American 
people.
    When the rhetoric about Federal workers as lazy, 
unproductive, or unresponsive to the public is tossed about 
without consideration to the men and women who labor for the 
government, it demeans and demoralizes employees. Please do not 
paint all Federal workers with the brush of a few problem 
employees. Federal employees deserve the respect of the Nation, 
not its scorn. They are what keeps this country working, day in 
and day out.
    Thank you.
    [Prepared statement of Ms. Kellen follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Chaffetz. Thank you.
    I now recognize myself for 5 minutes.
    What I would like to do is talk specifically about the case 
with Intern X, as we are referring to her. Please, I admonish 
members, the people on the panel today, do not use this 
person's name.
    Paul Bertram was accused of harassing several women over 
the course of time, and specifically I want you to give me your 
firsthand account of what she went through. What do you know 
specifically about this case involving Paul Bertram? What was 
his history, and what happened specifically to this intern? 
What was your findings, your personal involvement in that?
    And we'll start with Mr. Harris.
    Mr. Harris. My personal involvement is that I was 
contacted, I believe, right around sometime in May--I am sorry, 
March. She had spoken with another young lady, Ms. Deborah 
Lamberty, whose statement you read, and told her get in touch 
with me, because she did not feel like anything was happening. 
When she got in touch with me, I made several appointments to 
see her, took her the necessary documents. We discussed what 
was to take place, what had taken place. I recorded everything. 
I then contacted my director, Carolyn Bohlen, and then we 
proceeded from there.
    Emotionally, mentally, Intern X was a wreck. It bothered 
her. She was strong. She did prevail. She kept saying to me: I 
just want it to stop. How do I get it to stop?
    She contacted an individual who was the lead person, or who 
was supposed to have been addressing the issue, and she did not 
hear back from them for 3 weeks. And during this 3-week period, 
other incidents still occurred. She also continued to let the 
supervisor know, who also took no action.
    At that point my advice to her: You might have to file 
something in order to get them to do the right thing.
    Chairman Chaffetz. And what happened? What ultimately 
happened?
    Mr. Harris. I spoke with her about what it would take to 
file something. She said she just simply couldn't afford it. 
Her and her husband--I believe that was her husband at that 
time--were just getting their lives together. They both were in 
graduate school. They just did not have the money to pursue 
anything.
    Chairman Chaffetz. Why couldn't she do anything internally 
in the office, I mean, make a complaint?
    Mr. Harris. She did make an informal complaint.
    Chairman Chaffetz. But what happened? They just moved the 
cubicle, that is all they did?
    Mr. Harris. Yes. They moved her cubicle first. When we got 
involved in the OCR office, we said: Wait a minute. That is not 
the way you do this. You move the aggressor, not the intern.
    Chairman Chaffetz. When you say moved the cubicle, like how 
far?
    Mr. Harris. Originally they moved, I believe, it was four 
cubicles down.
    Chairman Chaffetz. So that was going to solve the problem, 
move it four cubicles down?
    Mr. Harris. Yes. And we insisted: No, move him to another 
floor.
    Chairman Chaffetz. Dr. Bohlen, what was Paul Bertram doing 
to this intern?
    Ms. Bohlen. To my knowledge, he was touching, groping her, 
kissing her, and she was feeling very uncomfortable by his 
advances. She had asked him to stop, and he continued to do it. 
And Dr. Bertram's advances were well known by management, and 
they had just been going on for years.
    The intern, along with two other ladies, came to my office, 
along with Mr. Harris, to report the situation. They were very 
upset, all of them. What they finally did was to give a number 
of testimonies to us. Mr. Harris and I prepared a 12-page 
summary document and prepared it for the human capital officer, 
the Office of Regional Counsel, as well as Mr. Mathur. And we 
gave the allegations, the persons who were involved, the 
comments that were given, and we gave recommendations.
    Chairman Chaffetz. And what happened?
    Ms. Bohlen. Mr. Mathur was irate with Mr. Harris and myself 
for writing up the 12-page summary. He questioned us and 
shouted and yelled at us, intimidated us, and said: Why did you 
report this to headquarters? Mr. Harris stated to him that it 
is the procedure to report sexual harassment and discrimination 
claims to headquarters. Mr. Mathur banged on his desk, pointed 
his finger, and said he was not interested in hearing the EEO, 
and he used and expletive when he referred to it.
    Chairman Chaffetz. What is Mr. Mathur doing now?
    Ms. Bohlen. He has retired.
    Chairman Chaffetz. What happened to Paul Bertram?
    Ms. Bohlen. Paul Bertram, to my understanding, retired. But 
he was seen in the building several times for several months 
after that at meetings, at various meetings. So I can't tell 
you exactly why he was there, but it looked suspicious.
    Mr. Harris. Mr. Chaffetz, may I make a comment on what Dr. 
Bohlen said?
    Chairman Chaffetz. Yes.
    Mr. Harris. The Agency, especially direct level supervisor, 
Mr. Paul Horvatin, they were going to issue a reprimand again 
to the same guy, despite the fact they had known all these 
years and had all these accusations against him. Once we 
stepped in and met with Mr. Mathur, myself and Dr. Bohlen, said 
you can't do this, you have got to do the right thing and 
elevate this to more than a reprimand, only then did they move 
to remove him.
    Chairman Chaffetz. How many previous reprimands had Dr. 
Bertram had?
    Mr. Harris. According to the witness statements that I 
remember and observed, there were three to four.
    Chairman Chaffetz. Thank you.
    I now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    As I've listened to this testimony, it is, indeed, very 
alarming. But having practiced discrimination law when I first 
came out of law school back in 1976, it does not surprise me.
    To all of you, to Mr. Harris, to Ms. Bohlen, to Mr. Tuttle, 
first of all, I want to thank you for standing up for what you 
believe to be right. My favorite theologian says that it is 
what you do when you are unseen, unnoticed, unappreciated, and 
unapplauded that matters the most. And I am sure that you all 
have stood up in many instances where you were not applauded, 
as a matter of fact, you got slapped for doing the right thing.
    Mr. Tuttle, the idea that you have been basically forced 
out of the Federal Government, I mean, is that a fair 
statement?
    Mr. Tuttle. Yes, that is essentially correct. I was handed, 
as part of what could have been and should have been a routine 
reassignment to Region 6, I was handed a modification to my 
original EEO settlement agreement that stated in part, and as I 
said in the record, stated in part, in exchange basically for 
being permanently reassigned to Region 6, I agreed to 
voluntarily retire no later than December 31 of 2015, and that 
EPA is authorized to initiate the documentation to indicate 
that.
    Mr. Cummings. Let me say this, that as I listened to the 
testimony, one of the things that is being said that is not 
being said is that when you all are being retaliated against, 
that means that you cannot do the job that we are paying you to 
do. Come on now.
    Mr. Harris. That is correct.
    Mr. Cummings. You can't do the job that we are paying you 
to do. Your effectiveness and efficiency is diminished. So that 
is a double whammy. Not only do you suffer, but the taxpayers 
can't get what we are paying for. And so that is why I am so 
appreciative of what you have tried to do.
    And one of the things that is just bearing into the DNA of 
every cell in my brain is the idea, Mr. Harris, that back in 
2000 you were making the same types of statements, I guess.
    Mr. Harris. That is correct.
    Mr. Cummings. In 2000. Which means that over the course of 
15 years, over and over and over again, obviously there have 
been folks who have been damaging people, harming them, and 
then moving on, or being promoted. Is that right? Is that a 
fair statement?
    Mr. Harris. Yes.
    Mr. Cummings. Now, back to you Ms. Kellen. I am glad you 
said what you said the way you said it, that we have a way up 
here of maligning Federal employees over and over and over 
again. But the fact is that we have some folk who are not doing 
the right thing. But you said something that is very powerful. 
You said the management gets rewarded. Am I right?
    Ms. Kellen. Correct.
    Mr. Cummings. But on the other hand, the rank and file, the 
folks getting up at 6 o'clock in the morning, giving their 
blood, their sweat and their tears, they get messed over. Am I 
right?
    Ms. Kellen. Absolutely.
    Mr. Cummings. We are better than that. We are.
    Now, Dr. Harris, Ms. Bohlen, Mr. Tuttle, I am very 
concerned about the allegations you raise, especially your 
claims that you were retaliated against for investigating this 
activity. Now, I understand that we have not investigated your 
claims yet, we haven't talked to your managers to get their 
responses, and we haven't requested any documents that would 
shed light on your claims. I hope we will do that soon. As I 
said to the chairman, I think we need to have the IG to look in 
this because this stuff is culture. I mean, you got to dig 
deep.
    In Baltimore, we had a situation where we had some concerns 
about our Police Department, and I asked for a patterns or 
practice examination. You know why? Because I knew that in 
order to deal with the culture, we had to dig deep. I mean, you 
cannot just leave this on the surface, because what will 
happen, Mr. Harris, is that you will be here, God willing, 15 
years from now making the same allegations with more victims 
having fallen by the wayside.
    Mr. Harris. That is correct.
    Mr. Cummings. What a waste of taxpayer dollars. But more 
importantly, what harm comes to people who are simply trying to 
walk into their destiny? And it is sad. We are better than 
that. And I thank you for what you are doing.
    But let me go on just 1 more minute. I want to ask you 
about the recommendations you made in your testimony and some 
legislative proposals that Congress is considering. Mr. Harris, 
you urged the committee to require EPA to develop a process to 
hold managers accountable for discrimination and retaliation. 
Is that right?
    Mr. Harris. Yes, I did.
    Mr. Cummings. I have a bill called the Federal Employee 
Antidiscrimination Act that does just that. It says: 
``Accountability in the enforcement of Federal employee rights 
is furthered when Federal agencies take appropriate 
disciplinary action against fellow employees who have been 
found to have committed discriminatory or retaliatory acts.''
    Mr. Tuttle, do you agree with that statement?
    Mr. Tuttle. I absolutely do.
    Mr. Cummings. And, further, my bill would require agencies 
to track every single complaint alleging discrimination from 
inception through resolution, which is not required now under 
Federal law. My bill would also require agencies to notify the 
EEOC when violations occur, and it would require agencies to 
report on their Web sites whether a finding of discrimination 
or retaliation was made.
    Dr. Bohlen, I realize these steps are not a silver bullet, 
but do you think they could help bring some additional level of 
accountability to the process?
    Ms. Bohlen. I do. I do think that this is exactly what is 
needed.
    Mr. Cummings. Well, I've run out of time, but let me say 
this. I have seen so many people over the years, over my being 
in the practice of law, I mean, people who have gone through 
difficulties, and then they were looked upon like you, Mr. 
Tuttle. They tried to do the right thing, and then they filed 
suit or whatever, and while waiting for the suit, they died.
    Mr. Tuttle. Yeah.
    Mr. Cummings. They died. I've see that over and over and 
over again. And I am so glad you all are coming before us. 
Hopefully we can get to the bottom of this so that 15 years we 
won't be going through the same thing, Mr. Harris.
    Thank you, Mr. Chairman.
    Mr. Harris. Congressman Cummings, may I make one comment on 
the bill that you are going to introduce?
    Mr. Cummings. Please.
    Mr. Harris. We need to include the language in settlements, 
because, as your bill might indicate, those who are found 
guilty, but when issues are settled, there's a clause----
    Mr. Cummings. There is a nondisclosure clause. We addressed 
that in the bill also. By the way, I did not get a chance to 
ask you about that. Because what happens, you are right, when 
they settle, they put a nondisclosure clause in there. And so 
therefore the very acts that brought about the settlement, they 
can't talk about them. So therefore they go on and on and on.
    Thank you, Mr. Chairman.
    Mr. Gowdy. [Presiding.] The gentleman from Maryland yields 
back.
    The chair will now recognize the gentleman from Michigan, 
Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    Ms. Kellen, thank you for being here from your position as 
president of the Council 238. Could you just summarize the 
basics, the general approach, as to how EPA leadership handle 
cases of misconduct or harassment by management?
    Ms. Kellen. Frankly, it varies from location to location. 
We do have some locations in which management has been 
responsive in listening to us and starting to address the 
problems, although I have to admit that the solutions that they 
come up with tend to be feckless, frankly.
    Mr. Walberg. What does the responsiveness look like, just 
briefly?
    Ms. Kellen. Responsiveness looks like an acknowledgement 
that the bullying behavior is happening and that there is a 
problem.
    The response, however, is to send the bully, whose been 
doing this for 20 years, off for training for 3 weeks with 
master's credit. I actually asked if I could be sent off for 3 
weeks of training with master's credits.
    In other instances, there is complete denial of what is 
going on. Frequently what happens is, when you raise the issue 
with one level of management, they join forces. Managers stand 
together as one, and the manager is always right, the manager 
is the one who is telling the truth, and the employee is the 
problem.
    Mr. Walberg. Does that promote, in the culture of EPA, an 
effective, productive workplace?
    Ms. Kellen. Oh, no. It undermines the work people are 
trying to do. These people just want to do their job. And if 
we'd just get out of their way, they would give great service 
to the American public. But, instead, you get this whole 
culture of--everything starts to revolve around the problems, 
and it just undermines everything we do.
    Mr. Walberg. In your testimony, Ms. Kellen, you say that 
the managers are not held to the same standard as their 
employees. Elaborate on that a little bit more. Explain it to 
us.
    Ms. Kellen. Okay. So what we see after the John Beale 
situation, which I am sure you are all aware was the CIA 
impersonator----
    Mr. Walberg. Right.
    Ms. Kellen. --the Agency came down very hard on employees 
on time and attendance issues, to the extent where there are 
times when single mothers have gotten in trouble for being 5 
minutes late once in a while. We had an employee who was 
severely ill who forgot to request his leave to take his 
doctor's appointment 1 out of, like, 40 visits. Despite the 
fact that he was working again later in the afternoon, he was 
put on AWOL for that period of time because he did not ask 
ahead of time.
    Yet the managers pretty much walk free. They do as they 
like, and they are not held accountable.
    Mr. Walberg. I guess this is a crucial question for me to 
hear from you, because you have talked with your membership, 
other employees. What steps do you think leadership at EPA 
should be taking to address these management problems?
    Ms. Kellen. Well, I think the first place to start would be 
developing a feedback loop.
    One of the issues I see is that, when you have a bullying 
situation going on, the bullies tend to be very good at 
managing upwards, so the senior leaders never see that 
behavior. And they need to listen to the staff, they need to 
listen to the employees.
    And when you are managing, you learn that there are some 
gripers, and then--but when the problem expands beyond those 
few people who are always griping to a larger group of people, 
you have to listen to the employees.
    So we need to develop a feedback loop to make sure that 
senior leadership gets feedback about how managers are doing 
within this process.
    Mr. Walberg. And ultimately they listen to it.
    Ms. Kellen. Well, that is the next step, that they actually 
have to act upon what they hear.
    Mr. Walberg. Okay.
    Mr. Chair, I yield back.
    Mr. Gowdy. The gentleman from Michigan yields back.
    The chair will now recognize the gentlelady from New 
Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    And thank you very much to the panel being here and sharing 
this very painful information. I spent much of my career 
working in EEO/affirmative action, and so I understand the, 
sort of, frustration when the system just does not do what it 
is supposed to do.
    I am not quite sure I completely understand your system, 
but I think we are dealing with two issues here. We are dealing 
with what does this agency do when it has a discrimination 
complaint, what is the process, what do you do--like the sexual 
harassment complaint. And then the other process is what 
happens to individuals who try to stand up and make the system 
work right, the whistleblowing.
    So let me go to the first piece. The first piece involves a 
sexual harassment, a discrimination complaint that you all 
investigated. This is a very toxic environment that you have 
described, as it relates to sexual harassment, with regard to 
this one individual. But is there a culture there that there is 
discrimination because of race and gender assignments also?
    Ms. Bohlen. Yes.
    Mrs. Watson Coleman. Is this--and I do not know who can 
best answer that.
    Dr. Bohlen?
    Ms. Bohlen. Yes. There is definitely the culture.
    Mrs. Watson Coleman. So have you all been called upon in 
that region to investigate discrimination complaints based on 
race, creed, color, all that other stuff?
    Ms. Bohlen. Yes, we have.
    Mrs. Watson Coleman. And do you have the same reaction and 
response from the higher-ups with regard to those cases as you 
did with this case involving sexual harassment and this doctor?
    Ms. Bohlen. Actually, I think that the higher-ups are not 
concerned with those types of cases.
    And, by the way, I might add that I was removed from the 
Office of Civil Rights as a result of my doing my job. Mr. 
Harris and I worked diligently with employees and with managers 
to make sure that they understood the policies of EEO and 
affirmative action. And I think that the attitude comes from 
the top. And if----
    Mrs. Watson Coleman. So, when you say ``the top,'' are you 
referring to the top of your regional office, or are you 
talking about headquarters?
    Ms. Bohlen. Well, it is the top of our regional office. 
And, of course, that should come from headquarters. I think it 
is a trickle-down effect.
    Mrs. Watson Coleman. So let me ask you a question. You 
investigate cases of discrimination, sexual harassment, 
whatever. You have a responsibility not only to report that to 
your regional office, but you have a responsibility to report 
it to headquarters also?
    Ms. Bohlen. That is correct.
    Mrs. Watson Coleman. And in doing so, you were then 
harassed--allegedly harassed on your regional level, right?
    Ms. Bohlen. Yes, we were.
    Mrs. Watson Coleman. Is there a policy in place in the 
Department as it relates to whistleblowing, harassment of 
whistleblowers?
    Ms. Bohlen. Yes.
    Mrs. Watson Coleman. And what is that policy?
    Ms. Bohlen. I will defer to Mr. Harris.
    Mrs. Watson Coleman. Mr. Harris?
    Mr. Harris. They have a policy, but it is more or less a 
statement. There is no official step one, step two, step three. 
But they send out a policy statement every year. So if you are 
asking me are there steps involved, no. And this is what one of 
my recommendations is. There should be.
    Mrs. Watson Coleman. Uh-huh.
    Mr. Harris. I want to respond back, if I may, to another 
part of the question or remark that you just made.
    One of the biggest issues that I've seen in doing this over 
a 10- to 15-year period, it is our own regional counsel's 
office. The moment a discrimination complaint comes in 
informally or even are mentioned, the attorneys are digging in 
with the managers. This is not the way the EEO--the OCR process 
is supposed into work.
    Mrs. Watson Coleman. Okay. Then let me ask you a question 
about that. Has the Department established any kind of, sort 
of, training and accountability on a routine basis?
    Mr. Harris. Yes, they have. Matter of fact, as I indicated 
in my statement, in 2004 and 2008, the same managers that 
withheld doing anything with regards to the sexual harassment, 
they attended the training. I submitted that as part of the 
evidence.
    The attorney, again, who defended the Agency during an 
informal process, documents were sent out by then Karen 
Higginbotham, who was a director, stating they should not be 
involved, prior to that, 1998, stated they should not be 
involved.
    Mrs. Watson Coleman. Let me ask you a really quick 
question. Anybody can answer it.
    Is it better as a result of your being here today, as a 
result of the, sort of, prominence associated with the issue? 
Is the culture better? Is there more accountability? Are there 
any steps moving in the right direction being done by the 
administrative branch?
    Mr. Harris. I can only speak on what I know. And, right 
now, just recently, there was another issue. I brought it to 
the DRA's attention, who is new, and he addressed it right 
away.
    Mrs. Watson Coleman. Okay.
    Mr. Harris. This is what is needed.
    Now, how long he'll be able to do that with that 
institutionalized culture, that is the question mark.
    Mrs. Watson Coleman. Okay.
    Ms. Kellen. And, if I could, as a lawyer, I would have to 
say: It depends. Because it is very dependent on the senior 
career leaders in each location. And I have found that some 
locations, the political leadership is stepping in and really 
trying to make a difference.
    Mrs. Watson Coleman. So consistency, or the lack thereof, 
is a big issue here?
    Ms. Kellen. That is correct.
    Ms. Bohlen. Yes. Absolutely.
    Mrs. Watson Coleman. Mr. Chairman, may I just ask one final 
short question?
    Mr. Gowdy. Yes, ma'am.
    Mrs. Watson Coleman. And this is to Mr. Tuttle, because he 
explained that he had investigated cases against Dr. Bertram--
--
    Mr. Tuttle. Yes, ma'am.
    Mrs. Watson Coleman. --as far back as 2000, and then you 
stopped.
    Mr. Tuttle. Yes.
    Mrs. Watson Coleman. Can you tell me why you stopped and 
what happened with the findings of your investigation?
    Thank you, Mr. Chairman.
    Mr. Gowdy. Yes, ma'am.
    Mr. Tuttle. Thank you for asking.
    I stopped at the year 2000 because I had--in my part of 
this investigation, I was doing it from the administrative side 
of the house as opposed to the civil rights side. And I would 
have gotten the names of previous interns who had been through 
the same thing, and I stopped at 2000 because that was the last 
point that any of the--either the employees that I had talked 
with or the interns could give me any information or contact 
information on who to reach out to.
    And I would have like to add, for the benefit--one of the 
things that was among the most disturbing things that I saw in 
those statements, one intern specifically stated that, because 
of what had happened to her and what had not been done, it not 
only changed her mind about a career with EPA, it turned her 
off from government service completely, and she ended up 
getting a job in a completely unrelated profession.
    Mrs. Watson Coleman. Thank you, Mr. Tuttle.
    Thank you, Mr. Chairman.
    Mr. Gowdy. The gentlelady yields back.
    The chair will now recognize the gentleman from Wisconsin, 
Mr. Grothman.
    Mr. Grothman. Thank you.
    Thank you all for your testimony.
    For most of us, or at least for me, when I think of the 
Environmental Protection Agency, I think of, you know, touring 
local farms, factories, that sort of thing and what they feel 
are, first of all, rules that are lacking in common sense, 
causing huge cost of money, perhaps chasing jobs out of 
America.
    Now, you guys are not psychologists, but I will ask you 
maybe to comment. I wonder, do you think the same apparent 
psychological problems with the management at EPA--the 
bullying, okay, the getting revenge on people, not dealing with 
legitimate questions but just walking away--is that 
psychological problem that you are experiencing, do you think 
those same psychological flaws in the EPA management is what is 
causing, you know, problems for American business or American 
landowners?
    Ms. Kellen. If I could respond, I believe that when you 
allow a bullying culture to exist with managers that those 
employees who have those tendencies will also act that way 
towards the public.
    I also think that is more rare. I think you hear about the 
worst ones, but on the day-to-day operations, unfortunately 
what I've seen is that some of our employees in the field have 
been harassed and threatened by the public because of the 
environment towards us.
    But I think, if there are instances of that out there, that 
the bullying culture definitely lends itself to that.
    Mr. Grothman. Well, what I am saying is I am extending even 
to the people who write the regulations that American business, 
that American farms have to live under. Okay?
    Now, a normal human being, in writing these regulations, 
would have to realize that, when you write them, it is going to 
be very costly, it is going to result in a lot of ambiguity in 
the regulations, you are going to create a situation in which 
individual employees can make subjective decisions that, quite 
frankly, ruin businesses and ruin people's lives.
    Do you feel, if this is the culture in the management of 
the EPA, that these personality flaws are perhaps one of the 
reasons why we have such onerous regulations coming out of the 
EPA?
    Mr. Harris. If I may respond?
    Mr. Grothman. Yeah.
    Mr. Harris. Yes, I do. You have a culture of arrogance, 
beyond the shadow of a doubt that you could ever see--the 
arrogance. And when you have that level of arrogance and 
unaccountability, there's an untouchable feel about this 
individual now. So, yes, I know it transfers over to the 
public.
    Mr. Grothman. Okay.
    Ms. Kellen. And if I could, as well, address that, I think 
part of the problem with that is just--I grew up in a town of 
400 people, so I know what it is like in rural America. And the 
rules you come up with in Washington, D.C., just do not always 
make sense when you get down on the farm. And I think that is a 
challenge in general.
    And I think one of the things I would caution you on is 
that, currently, the Federal Government itself is so loaded 
down with regulations that control us and tell us how we can 
and cannot do things that it is impossible to operate 
effectively or efficiently.
    Mr. Grothman. Do you think it is possible--and, obviously, 
you know, we are not going to get rid of the entire EPA--but do 
you think it is possible, given the huge culture of arrogance 
at the top, apparently covering so many employees, is it 
possible for the EPA to reform itself and work with the 
American people rather than right now, where it is perceived 
as, you know, I mean, really a problem agency that seems like 
its sole goal is to harass people and come up with regulations 
that lack common sense?
    Are there enough good people left in the EPA that it can 
even reform itself?
    Mr. Harris. Did----
    Mr. Grothman. Sure, Mr. Harris.
    Mr. Harris. I believe EPA can be reformed but not without 
accountability. There's no way you are going to have change and 
reform without accountability. Until you initiate 
accountability, do not expect change.
    Mr. Grothman. Just one more question. Do you think it would 
be better, given the huge problems you have, to take at least 
some of the responsibilities the EPA has and give them back to 
the various departments of natural resources around the 
country?
    Mr. Harris. They have what--in working in the HR issues, 
they have what they call the delegation of authority. If EPA 
cannot perform in a satisfactory manner and eliminate that 
culture of arrogance, that delegation of authority should be in 
place to take that authority away and give it to somebody else. 
This is how you hold an agency accountable.
    Mr. Grothman. Thank you very much, Mr. Harris. We will see 
if we can do that.
    Chairman Chaffetz. [Presiding.] Thank you. I thank the 
gentleman.
    We will now recognize the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you.
    I just want everyone to know here today that sexual 
harassment in the workplace and allegations of management 
coverup are something I take very seriously. As a matter of 
fact, during my tenure with the Federal Government, I served as 
an EEO investigator. So these are things that I am--the process 
and the sensitivity to this I take very seriously.
    So one of the protections in place throughout our executive 
branch is the Office of Inspectors General. And this committee 
has worked to strengthen the role of the IG because of the 
critical importance of an independent investigation when 
allegations such as this arise.
    So my question to you today, to the members of this panel: 
Mr. Harris, did you contact the IG, or did you consider doing 
so?
    Mr. Harris. No, we did not contact the OIG. My reasons for 
not contacting, or the individual contacting them, in Region 5, 
OIG is seen as an extension of management, and many employees 
are intimidated to contact them.
    The reason for this, because when certain managers with the 
bullying tactics, the first thing they do, they contact OIG and 
sic them on the employees. So the persona of the OIG regional 
office is not the persona that it should be, because they are 
used as extensions of management to attack employees. So no one 
wants to talk with them.
    Mrs. Lawrence. So would you say for the record that you 
feel that the IG, as we call them, actually are part of the 
conspiracy of what happened in this case?
    Mr. Harris. No, I do not. I think OIG, themselves, 
independently, will and can do a good job. But the perception 
of the employees toward OIG.
    And, no, I do not think there's a conspiracy. I think OIG 
would investigate the facts as they are. But the perception.
    Mrs. Lawrence. But they were not given the opportunity.
    Mr. Harris. That is correct.
    Ms. Bohlen. And I might add that there is a certain clique 
of managers that seem to follow the same pattern. It is not all 
supervisors and managers that have this opinion or that operate 
in this manner.
    But there is a certain faction within EPA that seems to 
have the attitude that Mr. Harris just--the arrogance and the 
entitlement and that idea of being above the law. And those are 
the managers that taint the region, that cause low employee 
morale. And those are the ones that need to be isolated and 
dealt with and held accountable.
    Mrs. Lawrence. Mr. Tuttle, could you respond to that 
question pertaining to the IG?
    Mr. Tuttle. Well, I was going to ask just to weigh in on 
this.
    I knew personally two people that worked in the Office of 
the IG in Region 5 that were investigators. I had met them 
independently when they came down to my office to seek 
information about other issues. And while I was completely 
comfortable that if it was left to them that it would be 
investigated, I, too, was not--I am like Mr. Harris. I was of 
the impression that the IG's office has the persona of being an 
extension of management.
    Contacting the IG would've normally been one of the things 
I would've recommended, but I wasn't comfortable doing that.
    Mrs. Lawrence. Ms. Kellen?
    Ms. Kellen. Yes. Just to let you know, I have reached out 
to the IG. And, unfortunately, our meeting was cancelled last 
week because of various reasons. But my intention is to work 
with the IG to try to find a way to address these issues and to 
try to reopen those lines of communication so that employees do 
feel comfortable reporting that. So that is an ongoing effort 
that we are making right now.
    Mrs. Lawrence. Again, I want to reiterate that part of the 
investigation of allegations such as what we have heard, and 
the whistleblower and that, we must exercise the process that 
we have. And we can't hold our government responsible if we are 
not using the investigative tools that are allotted to us.
    It seems to me that the allegations that I have heard here 
today, which are disturbing to me, are exactly the type of 
allegations that we need a third party to investigate.
    Mr. Harris. That is correct.
    Ms. Kellen. Absolutely.
    Mrs. Lawrence. And perceptions are hard to validate when 
you are not even given the opportunity or reporting for that. 
When management fails to investigate themselves, the IG can 
step in as an independent party to carry out that 
investigation.
    Mr. Chair, I yield back my time.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Harris, I made a note, the ranking member in his 
opening remarks said that sexual harassment was intolerable and 
had no place in the Federal workplace. And if you heard him 
today and hear the passion with which he speaks on this issue, 
you will know that if he were in charge it would be not 
tolerated and have no place in the workplace.
    Mr. Harris. That is correct.
    Mr. Gowdy. But he is not in charge. And it appears to me 
that it is tolerated, prevalent. And, really, the only 
consequences are consequences for the victims, not the 
perpetrators.
    Mr. Harris. Yes.
    Mr. Tuttle. That is right.
    Mr. Gowdy. The chairman, whom I laud for calling this 
hearing, began to get into some of the specifics with you, and 
that is precisely what I am going to do.
    No names, no identifying characteristics at all, but I want 
to know, how many victims and witnesses to the harassing 
conduct were there?
    Mr. Harris. From the top of my head, right now I remember 
there were at least 10. I do not remember specifics, but I do 
have it documented in the evidence that I submitted. But I do 
remember there were at least--we took 10 statements.
    Mr. Gowdy. All right. So there are 10 victims of sexual 
harassment.
    When did the conduct begin?
    Mr. Harris. I was informed--as I said, we worked together. 
I was informed that the conduct started right around 2002.
    Mr. Gowdy. All right.
    Now, we use the word ``conduct'' because it has such a 
benign-sounding name to it. I want you to describe for our 
fellow citizens what that conduct was. What did these victims 
have to endure?
    Mr. Harris. According to the statement submitted by one of 
the victims, she endured the very same thing--the touching, the 
attempts at rubbing, touching her back, arms, legs, shoulders. 
This, if I remember correctly, according to the statements, 
happened to at least four of these women.
    They reported this, again, going back to 2002, and nothing 
took place for this long, limited period. The manager involved 
was more hellbent on saving the reputation of Dr. Bertram than 
he was in dealing with the issue. He himself stated to one of 
the victims, ``If I do something, it will ruin his 
reputation.''
    Mr. Gowdy. Well, I think he had already done that.
    And, to the extent that he had not, we are going to keep 
going. I read hugs, kisses, placing his hand on the knees of 
several women. Is that correct?
    Mr. Harris. That is correct.
    Mr. Gowdy. Rubbing their arms, upper and lower backs. Is 
that correct?
    Mr. Harris. That is correct.
    Mr. Gowdy. And, again, this is going on since 2002?
    Mr. Harris. Yes. We were made aware this had been taking 
place since 2002. We predict it might have lasted longer than 
that, but----
    Mr. Gowdy. Well, let's just go with the most--let's just go 
with what we know we can prove.
    Mr. Harris. Okay.
    Mr. Gowdy. 2002. We have a combination of victims and 
witnesses who were forced to watch this, whom I also consider 
to be victims, numbering 10.
    Mr. Harris. Uh-huh.
    Mr. Gowdy. Gestures, remarks, and other sexual innuendos. 
What were some of the remarks and innuendos that these victims 
were forced to endure?
    Mr. Harris. I remember, in one conversation with one of the 
young ladies, they were at a meeting, and one of the innuendos 
were--there was a couple of males who were bantering back and 
forth. And they were supposed to be on a ship, the Guardian, 
which is the EPA vessel. And they kept making references as to 
who they were going to ``poke.''
    Mr. Gowdy. So you have conduct dating back to 2002. You 
have double-digit victims. You have conduct that is by any 
definition sexual harassment.
    Mr. Harris. Correct.
    Mr. Gowdy. Now, I want you to tell my fellow citizens all 
the consequences that the perpetrators suffered.
    Mr. Harris. The perpetrator--or, initially, there was an 
issue for a--they were going to go ahead and give him a 
reprimand.
    Mr. Gowdy. A reprimand.
    Mr. Harris. For about the third--a written reprimand for 
about the third or fourth time. When we stepped in and said, 
wait a minute, you gotta do more than that, that is when----
    Mr. Gowdy. How would you get a reprimand for this conduct? 
Is there any ambiguity as to whether or not it is acceptable? 
Is there any ambiguity as to whether or not it is illegal?
    Mr. Harris. It is not acceptable and should not be. If you 
look at the Agency's----
    Mr. Gowdy. It is actually a crime----
    Mr. Harris. I would have agree.
    Mr. Gowdy. --to touch someone when the touching is 
unwanted. It is actually a crime.
    Mr. Harris. Yeah.
    Mr. Gowdy. Well, I hope it gets remedied. This workplace 
environment is criminal.
    Mr. Harris. Yeah. It is toxic.
    Mr. Gowdy. And whatever consequences befall this 
perpetrator would be insufficient, in my judgment.
    I yield back to the chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Virginia, Mr. Connolly, 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thank you all for being here.
    I think all of us ought to stipulate that sexual harassment 
in any form is wrong. In some cases, as my friend from South 
Carolina just said, it is against the law. Unwanted advances 
simply cannot be tolerable in the workplace. And it is the 
obligation of every agency manager within the Federal 
Government to protect the workforce from such unwanted 
advances.
    But I think it is important for all of you to also keep in 
mind that in this Congress, unfortunately, there is a clear 
agenda against the mission of EPA that does not want EPA 
protecting the public through regulatory process. And it is 
very important that, as we excise out wrongdoers with respect 
to sexual harassment, that we keep in mind there is another 
agenda sometimes at work here, too. Of course, none of my 
colleagues here.
    And I do not know how many times--over 100--we have voted 
on the floor of the House to de-fang EPA. Whether it be water 
regulation, air regulation, particulate matter, you know, we do 
not like it, collectively, this Congress. And I just--a word of 
caution, in terms of what is--some might see another agenda 
going at work here.
    Now, let me ask Ms. Kellen--so, listening to this and 
certainly listening to the formidable statements against the 
evil of sexual harassment--so sexual harassment is a pervasive 
part of the EPA culture; is that right?
    Ms. Kellen. I would not say it is a pervasive part. It 
happens in locations, and it is not appropriately addressed.
    Mr. Connolly. Right.
    Ms. Kellen. Bullying is more pervasive.
    Mr. Connolly. Bullying.
    Ms. Kellen. Bullying, which is as detrimental, almost as 
detrimental, as sexual harassment.
    Mr. Connolly. Why do you think, when it does occur, 
although it is not pervasive, it is not handled instantly, I 
mean, you know, efficiently and rapidly, so we make a clear 
statement to others who might think that is okay and, frankly, 
to deal with the situation so the victim is not lingering, you 
know, without an unresolved case? Why do you think that is?
    Ms. Kellen. I think, most of the time, most of the 
managers--EPA employees tend to hang around a long time, and 
most of the managers have come up through the ranks together, 
and they just cannot imagine that Joe over here, Manager Joe, 
who is the nicest guy in the world to them, could possibly be 
treating their employees that badly.
    They are not listening to the employees. And I think 
there's a lot of pressure on senior leaders. And there are 
plenty of really good managers at EPA, but I do not think they 
have the support to stand up to other managers and do what 
needs to be done.
    Mr. Connolly. You know, H.L. Mencken once said that, for 
every human problem, there is a solution that is simple, neat, 
and wrong.
    One of the solutions being proposed floating around here is 
actually to take away civil service protections from Federal 
employees, virtually making Federal employees at-will employees 
so that protections go away.
    Do you think that would be helpful in terms of trying to 
make sure we are excising sexual harassment from the Federal 
workplace?
    Ms. Kellen. I think that would be a disaster. None of the 
people to my right would still be working for the Agency if 
that were the case. They would have got them out of the Agency 
so fast none of us would have known what happened.
    Mr. Connolly. Mr. Tuttle, you are shaking your head 
``yes.'' You agree with Ms. Kellen on that, that it would be 
counterproductive?
    Mr. Tuttle. Yes, I do. I do not want to broad-brush 
anything. I think that appropriate action needs to be taken on 
situations like this and others, and frequently it is not, 
whether it is the culture of get along, go along.
    In my words that clearly belong to me, my attitude and 
viewpoint has been that management will do whatever it wants, 
when it wants, to who it wants, any way they want, anytime they 
want, with impunity. And my colleagues to my right----
    Mr. Connolly. You mean without civil service protection?
    Mr. Tuttle. So I do not think--yeah. So I do not want to 
broad-brush anything----
    Mr. Connolly. Yeah.
    Mr. Tuttle. --but I do agree with Ms. Kellen, that if the 
protections were removed, I can pretty much assure you that you 
and I would not be having this conversation.
    Mr. Connolly. Dr. Bohlen and Mr. Harris, I have very little 
time left. Did you want to comment on this question of the 
removal of civil service protections?
    Ms. Bohlen. I agree with my colleagues to my left. This is 
a very serious situation for us----
    Mr. Connolly. Could you speak up, Dr. Bohlen? I am sorry.
    Ms. Bohlen. I am sorry. I agree with my colleagues on the 
left. It is a very serious situation for us to deal with, and 
if we were not to have that protection, none of us would--
neither of the three of us would be here today. So----
    Mr. Connolly. Thank you.
    Ms. Bohlen. --that is my response.
    Mr. Connolly. Very important testimony.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Ms. Kellen, you mentioned earlier that many people, 
employees at the EPA just wanted to do their job, and if the 
managers could get out of their way, they would be able to do 
so.
    And just to counter a bit the gentleman from Virginia, we 
are not talking about an agenda against clean air or safety or 
that type of thing, but there are many businessowners out 
there, quite frankly, who feel the same way about the EPA as 
the people who are working there. They just want to get the EPA 
off their back and allow them to do their business without 
being bullied by the culture that is within the EPA.
    But I do want to go specifically to some of the issues you 
brought up regarding retaliation. There has been quite a bit 
mentioned in that regard here today.
    In your opinion, what kind of retaliation is there? We have 
mentioned bullying, perhaps changing of positions. But, 
specifically, what type of retaliation is there against people 
who report these types of thing?
    Ms. Kellen. Well, in the instance that I mentioned in my 
testimony, once the employee had filed her EEO claim, they 
decided to go on a fishing expedition and search through her 
email and try to--and go through her desk and try to find 
something that they could go after her for. And so that that is 
one way.
    And, really, when you look at the nature of the Agency----
    Mr. Hice. And what would they use that information, 
whatever they found? Would it be used in a blackmail kind of 
way? Or how would they use it?
    Ms. Kellen. It was used to try to remove her from Federal 
service.
    Mr. Hice. Okay. All right. So it was an attempt to find 
something in order to fire her.
    Ms. Kellen. Exactly.
    Mr. Hice. All right.
    I am sorry. Continue, please.
    Ms. Kellen. In other instances--I think the issue with the 
Federal Government, it is very easy, because of the amount of--
after the Beale situation, the time and attendance rules are 
very tight, and we are spending an extraordinary amount of 
money trying to enforce that against the rank-and-file 
employees. And so it is very easy to find a technical violation 
when someone is still doing their job.
    So the other forms of retaliation is not assigning the good 
work. People really are excited about their job. They want to 
do good work. And you can take away the high-profile cases, you 
can take away the good work and give them the, kind of, dredge 
of the work.
    And so there's severe and there's more subtle types of----
    Mr. Hice. But there's multiple types of retaliation.
    Dr. Bohlen, real----
    Ms. Bohlen. May I comment?
    Mr. Hice. --quickly, please.
    Ms. Bohlen. Yes. The denial of workplace benefits and 
privileges is one way of retaliating. Harassment. Then you have 
the removal, the backdating of personnel actions to change the 
situation so that it appears to be what management wants it to 
be.
    Mr. Hice. You mentioned earlier specifically intimidation.
    Ms. Bohlen. Yes.
    Mr. Hice. So there's quite a bit of about. All right.
    How prevalent is retaliation in the culture?
    Mr. Harris. Mr. Hice, may I address also that issue and 
that question, if you do not----
    Mr. Hice. Yeah, but do so quickly. My time is running out.
    Mr. Harris. The higher up you go, the more the retaliation. 
You have a go-along-to-get-along mentality. You file one 
complaint, say something is wrong, there's now 25, 30 people 
you now have to watch.
    Mr. Hice. Okay.
    All right. How prevalent is this?
    Mr. Harris. It is very prevalent.
    Ms. Bohlen. Very prevalent.
    Mr. Harris. The higher up you go, the more prevalent.
    Mr. Hice. All right. So this is not--these are not out of 
the ordinary, these are not exceptions. The entire culture is a 
culture of you fall in line, you do as you are told, or you 
will suffer consequences.
    Mr. Harris. That is correct.
    Ms. Bohlen. Absolutely.
    Mr. Hice. All right.
    All of you would agree with that?
    Mr. Tuttle. Yes.
    Mr. Harris. Yes.
    Ms. Kellen. I actually might disagree a little bit, because 
there are some managers there who really do support their 
employees and allow them to do their work.
    Mr. Hice. That would be the exception.
    Mr. Harris. Well, we are talking different regions, too.
    Mr. Hice. No, not necessarily.
    Ms. Kellen. Not necessarily.
    Mr. Hice. All right. But it is not uncommon? Is it safe to 
say it is not an uncommon----
    Ms. Kellen. Right. And maybe I just come from a location 
that has better managers than----
    Mr. Hice. Sure.
    Ms. Kellen. --they have in Chicago.
    Mr. Hice. Okay.
    What are the options that a person has? If they want to 
identify harassment or they've seen something that they want to 
report, what are the legitimate options, given the fact that 
there is a culture of retaliation if they go forward?
    Mr. Harris. Your options are diminished. But, again, we 
have talked about OIG, the perception or persona. And I think 
OIG would do an excellent job, but the persona.
    OCR, if you look at the new OCR policies that the Agency 
just came out with, they just changed them. Now, you do not 
even contact the OIG's office.
    Mr. Hice. What about the person whose there, though? I 
mean, do they feel like there are options, or do they feel like 
they just have to be silenced?
    Mr. Harris. They feel like they have to be silent. Their 
options are----
    Mr. Hice. All right. So they do not feel comfortable.
    Mr. Harris. No, they do not.
    Ms. Bohlen. No.
    Mr. Hice. Okay.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Kellen, you mentioned that if the EPA leadership fails 
to act on management complaints that were investigated by the 
Office of the Inspector General, then that could undermine the 
IG reporting system.
    This committee takes that very seriously. We have had a 
couple of hearings in which Arthur Elkins, the inspector 
general for the EPA, has testified and talked about the 
impediments that they've faced in investigations, I think some 
specifically to what is being discussed here today.
    Can you elaborate on this concern from your perspective?
    Ms. Kellen. Absolutely.
    In one situation that I actually mention in my written 
testimony, the IG did an investigation of an employee. He was 
moved off into a small office. And then he was brought back up 
to the administrator's office.
    I have asked to see the copy of the IG report. I've talked 
to the former chief of staff to try to get an idea of what 
really happened here. And I was told he was exonerated except 
for the alcohol charge, but I am not allowed to see the report.
    And so I am not allowed to know whether he was actually 
exonerated from all these charges or whether the employees were 
just too afraid to talk to them. And there's a big difference 
there.
    And so, by having these reports not shared or not more 
open, we have no way and the employees who anonymously reported 
this have no way to know that anything was actually done on it.
    Mr. Palmer. Are there other examples that you might cite?
    Ms. Kellen. Not offhand, but I am sure it has happened in 
other situations. But, in general, we do not get to see the IG 
reports on these matters.
    Mr. Palmer. One other thing that troubles me about the 
culture at the EPA involves the title 42 appointments by EPA. 
And they allow the EPA to pay well above the normal title 5 
levels, with salaries reaching $200,000, $300,000. That is 
supposed to be used to hire temporary consultants.
    Why does the EPA use this authority to hire managers when 
it is intended to attract top-quality scientists and engineers?
    Ms. Kellen. In one instance, I was told that they use the 
authority because it takes so long to get an SESer in place and 
that this was a fast, easy way to get a manager in there.
    But I also think that there is, at least in some places, a 
culture of, frankly, nepotism-like behavior, whether they have 
people that they know of, buddies from before, that they want 
to get into some sweet position that they can just kind of slip 
them in and let them do their thing.
    Mr. Palmer. And those people are protected?
    Ms. Kellen. They are not protected, really. They are 
protected by management, but they shouldn't be protected, 
because they are term appointments. So it should be very easy 
to remove them, yet they do not.
    Mr. Palmer. Okay.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I will now recognize myself. Mr. Cummings and I have just a 
couple followup questions, and then we'll get to the 
Administrator.
    I need to understand the involvement of Susan Hedman. Have 
you any personal experience with any sort of retaliation from 
Susan Hedman herself?
    Mr. Harris, go ahead.
    Mr. Harris. I do, personally--I did not have contact with 
her directly. However, personally, yes, I believe she was 
definitely made aware of what was taking place. There's no 
doubt about it. If you read what Mr. Mather stated in his 
affidavit and in the depositions, he clearly stated he'd 
consulted with her. And once she was made aware of this, her 
statement in her own affidavit, ``I told him to handle it,'' 
or, ``I just want this to go away.''
    The question with regards to my reassignment and the 
depositions that my attorney, Mr. Stuhl, took over--I am sorry, 
I am sorry, Carolyn Bohlen's depositions--again, the 
elusiveness, the ``I just wanted it done with and over.''
    And she signed those documents, but yet in the deposition 
she stated she did not have anything to do with this. It was 
like she was above this. As the CEO of that region, how can you 
be above something of this nature?
    Chairman Chaffetz. Dr. Bohlen?
    Ms. Bohlen. Mr. Mather stated on several occasions that he 
had consulted with Ms. Hedman and that they had agreed on 
certain negative aspects of what happened to me in the 
retaliation, like the removal from the OCR, like not allowing 
me to have the temporary medical flexiplace, episodic 
flexiplace, I was denied the workplace privileges and benefits, 
and also involved in backdating personnel documents, which I 
think is a serious issue.
    I see that her name was on those documents, signed those 
documents. So there was some involvement, yes.
    Chairman Chaffetz. Thank you.
    Mr. Tuttle?
    Mr. Tuttle. As I indicated in the statement I submitted to 
the committee, in December of 2012 when I returned from 
Christmas leave, my colleague and my labor relations supervisor 
told me that he had been informed by an attorney from the 
Office of Regional Counsel that Ms. Hedman had told Mr. Mather 
and Ms. Newton to get rid of me--and I use the term ``get rid 
of me'' colloquially--largely because of the sexual harassment 
case and my involvement in that and how hard I was pursuing to 
see that management was held accountable for their 
responsibilities in that, as well as some other incidents that 
occurred that I alluded to in my statement where I took a stand 
and said, no, this is not going to happen this way, and I 
became an impediment.
    So that is what I understand that she was involved in. As I 
indicated in my statement, that is hearsay on my part, but it 
was credible at the time, given the circumstances.
    Chairman Chaffetz. And, Mr. Tuttle, I haven't heard from 
you directly verbally here about the Intern X. What did you 
find? What did you hear? And were there other incidents that 
this Paul Bertram was involved with? What was your finding?
    Mr. Tuttle. My findings were that, in the statements that I 
had gotten, the written statements I had gotten from not only 
Intern X but the other interns that I was put in contact with 
that submitted statements, a majority, not all, but a 
significant majority of those statements all indicated that the 
same type of behavior--the touching, the inappropriate contact, 
the sexual innuendos, the words--all of that the same.
    All of the statements that expressed that indicated that 
that intern had reached out to management, in particular the 
manager that was responsible, because they were all in the same 
branch within that division. And they had reached out to this 
manager to get it to stop. And one of them made the statement 
that Mr. Harris brought up that said, when she wanted something 
done about it, this manager, Paul Horvatin, said to her, 
``Well, you know, if I do this, it will ruin his career.''
    And, as I indicated to Ms. Lawrence, to Congresswoman 
Lawrence, one of the other things that was said was that these 
women all asked for something to be done, and nothing had been 
done.
    And to piggyback on what my colleagues have said here, all 
of this was made much worse than just being in the office, 
because all of these interns went out on our research vessel, 
the Lake Guardian, onto Lake Michigan, because that is a normal 
part of what Region 5 does because that is the national program 
for the Great Lakes. And sometimes they are out for days at a 
time. And so to be confined on this small research vessel while 
this is going on was a concern for the ones that I had gotten 
statements from.
    Chairman Chaffetz. How many people, and how far back did it 
go in the record?
    Mr. Tuttle. My records went--I got statements that went 
back to approximately the year 2000. That would have 
encompassed about 10 statements, like Mr. Harris said. And 
probably all but--best I can remember right now, all but two 
had this same kind of statement made to them.
    Chairman Chaffetz. In your professional opinion, how would 
you categorize Mr. Bertram? Was he a predator? Was he a 
serial--I do not want to put words in your mouth.
    Mr. Tuttle. Based on what was documented, that could 
conceivably constitute a serial predator. And, you know, as I 
heard someone else make the statement, and I can't remember 
where I heard it, but, you know, this predator was being fed a 
steady diet of young interns over an extended period of time.
    And to also go along with my involvement--because, again, 
as I indicated to the committee in my statement, I pursued this 
from the administrative side, and I was pursuing, actively 
pursuing, removal. And when Dr. Bertram was served notice, I 
guess, of his proposed removal, he retained an attorney. And 
from what I was given to understand through my labor relations 
supervisor, Mr. Gil Colston, once his attorney--because we 
provided support documentation as part of the due process--once 
his attorney saw what evidence we had that we were using to 
justify the removal, the attorney supposedly came back to Mr. 
Mather and asked if Mr. Mather would let him retire in lieu of 
removal.
    Now, Dr. Bertram had sufficient service for regular 
retirement at the time that removal was proposed. I was not 
proposing to do him out of retirement, because that wasn't 
within my purview. But, by removing him, I could have added a 
few extra months and steps into him getting his retirement. 
Instead, in my professional opinion, when Mr. Mather agreed to 
let him retire, he gave him a free pass out with no blemish. So 
he had done all these things and essentially walked free.
    Chairman Chaffetz. Was there any discussion about a 
criminal referral? Because, in my opinion, in Mr. Gowdy's 
opinion, what he did was illegal.
    Mr. Tuttle. What he did was absolutely illegal. I do not 
know if discussion was held between Mr. Mather once the matter 
was brought to his attention and the regional counsel, Mr. 
Kaplan, who is now the Deputy Regional Administrator since Mr. 
Mather retired. I do not know if discussion was held on that or 
not. I can't testify to that.
    Chairman Chaffetz. Dr. Bohlen, it seemed like you wanted to 
add something.
    Ms. Bohlen. Yes, I just wanted to interject something.
    It seemed as though Susan Hedman made herself involved in 
the GLNPO program, the Great Lakes national program, as a 
result, I think, of an enormous grant that was given. And Dr. 
Bertram was a scientist that was very, very important in 
completing the projects involved in that GLNPO grant. And I 
think that they were trying to hold onto him for that reason 
specifically until some of the work was, you know, either 
transferred to someone else or that he was able to at least get 
involved with cleaning up some of the project.
    Chairman Chaffetz. So what you are saying is it was more 
important to the EPA to get the grant money and to get the 
grant done than it was to hold him accountable for----
    Ms. Bohlen. Yes, it was. At the hands of Ms. Hedman.
    Chairman Chaffetz. It is disgusting. Absolutely disgusting.
    I now recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I just 
have a few questions real quick.
    Let me say this. I assume this is being streamed to EPA, 
probably. And all of you out there in EPA land, let me tell you 
something. We have had these courageous people to come before 
us today, and I promise you that if you try to retaliate 
against any of them I will do everything in my power to come 
after you. And I really mean that. I do not want anything to 
happen to these folks or any other people who are bravely 
coming forward, trying to simply do their job.
    Ms. Bohlen. Uh-huh.
    Mr. Cummings. Just doing their job.
    Mr. Tuttle, if it were not for all of this, do you think 
you'd stay in service? In other words, you have been kind of 
forced out, but would you have rather to stay in service?
    Mr. Tuttle. Well, to answer the question directly, yes. I 
like what I am doing. I believe--I've always been in customer 
service positions. I like what I do. I enjoy helping people and 
helping the mission get done.
    And because of all of the things I've done, I've not only 
been--I am not only facing a force-out in December, I've been 
reduced in grade from a GS-15, which is what I was in Chicago, 
to a GS-14; I've been removed from supervision; I am not 
allowed anywhere near anything to do with what I formerly did, 
at least certainly anything where I can contribute at the level 
I have expertise in.
    Mr. Cummings. Have any of you all ever talked to 
Administrator McCarthy, any of you, directly?
    Mr. Harris. No.
    Ms. Bohlen. I have not.
    Mr. Tuttle. No.
    Mr. Cummings. She is going to be sitting where you are 
sitting in about 5 minutes. What would you, if you--since you 
are not going to be asking questions, what would you want us to 
say to her? And how do you think that she can help you do your 
job? Because you are not--we are going to have that 
opportunity. You won't. This is your shot. I am listening.
    Mr. Harris?
    Mr. Harris. Well, I would like to see, the very first 
thing, who are you going to hold accountable. And I do not just 
mean accountable with a slap on the wrist or another 
reassignment and then you get promoted a year from now and get 
a big, fat award. Who are you actually going to remove from 
Federal service as to what occurred to us?
    Mr. Cummings. By the way, she is probably watching this 
right now. But go ahead.
    Mr. Harris. That is my question with her watching. Who are 
going to remove from Federal service?
    Mr. Cummings. All right.
    Dr. Bohlen?
    Ms. Bohlen. Yes, I think that disciplinary action is 
necessary for those who are violators of Federal policies, 
rules, and regulations. And I think that accountability, as Mr. 
Harris said, is very, very important. There should be some type 
of stringent action coming from the top down to reinforce the 
fact that retaliation, sexual harassment, discrimination, and 
the like will not be tolerated here. And I think that will be 
done through example.
    Mr. Cummings. Mr. Tuttle?
    Mr. Tuttle. I agree with my colleagues. I think 
accountability that is held firmly to is the only answer. I 
think that retaliation in any form, regardless of who it is, 
whether it is me, any of my colleagues, or anybody else, is 
abhorrent and has no place in any organization.
    So if I were going to say--I were going to ask a question, 
it is, are you going to take a stand to make sure that me, my 
colleagues, and people like me can speak out on issues that 
need to be brought into the light of day and we are not going 
to have to worry about whether we are going to end up out on 
the street or castigated or marginalized or shamed any more 
than we have already been?
    Mr. Cummings. Ms. Kellen?
    Ms. Kellen. I want the Administrator to do what the head of 
VA recently did and go to us, the unions, and work with us so 
that we can identify the problems. Because we know where they 
lie, and we will be very careful about not identifying people 
who are not the problem. We will identify the problems, and 
they need to address them.
    Mr. Cummings. Now, one thing that Ms. McCarthy may say is 
that EPA issued a notice of proposed removal of Dr. Bertram 
within 2 months of the March 2011 incident. Is that accurate?
    Mr. Harris. That is accurate, but only after we got 
involved and completed a factfinding investigation. Initially, 
they were going to give another reprimand. When we met with Mr. 
Mather and told him, you can't do another reprimand----
    Mr. Cummings. I am running out of time, unfortunately.
    Mr. Harris. --that is what it changed.
    Mr. Cummings. But let me just say this as I close. I want 
to thank you for what you have said.
    And I've got to tell you, my chairman here is a lot younger 
than me, but as I get older, I realize, Mr. Harris, that 15 
years from now I may be dead. And what you are doing today, it 
is not just about this moment----
    Mr. Harris. Yeah.
    Mr. Cummings. --and it is just not about the people there 
right now. It is about generations yet unborn.
    Mr. Harris. That is right.
    Mr. Cummings. It is about people who are in high school 
right now----
    Ms. Bohlen. Right.
    Mr. Cummings. --little kids in the sixth grade----
    Ms. Bohlen. Yes.
    Mr. Cummings. --who simply want to give.
    Ms. Bohlen. Uh-huh.
    Mr. Cummings. They do not want to make a lot of money. They 
just want to make things better for all members of our country.
    And so what you are doing, what you have done, it goes 
beyond--hopefully it goes beyond the grave. And so I want you 
to keep pushing forward.
    Mr. Tuttle, I am so sorry that you are being forced out of 
government, because you all are the kind of people that we 
need.
    Ms. Bohlen. Yes, he is.
    Mr. Cummings. You are the ones that we need.
    Ms. Bohlen. Uh-huh.
    Mr. Cummings. But, yet and still, you are forced out, 
simply trying to do the right thing.
    Ms. Bohlen. Yes.
    Mr. Cummings. We are better than that.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I want to thank you all for being brave 
enough to come here and testify. It will make a difference. We 
do listen to what you have. We do want to continue to follow up 
with you.
    And I concur with our ranking member here. The passion that 
he puts into this and the caring that he has we all appreciate. 
And you keep us up to speed, and we got your back.
    We are going to stand in recess for approximately 5 minutes 
while we reset, and then we will start our second panel with 
the Administrator.
    [Recess.]
    Chairman Chaffetz. The committee will come to order.
    We are pleased to welcome the Honorable Gina McCarthy, 
Administrator for the Environmental Protection Agency.
    And, Administrator, we appreciate you being here. You have 
regularly testified before Congress. You have made yourself 
available, and to that we are very appreciative, as I know 
other committees are.
    It is not always an easy thing to come and testify before 
Congress, but I do believe it is one of the unique things and 
great things about the United States of America, the way we 
operate. We have these discussions with candor. We ask tough 
and difficult questions. It is part of the checks and balances. 
And your personal involvement and participation is very much 
appreciated. And we recognize that, and we thank you.
    As you know, pursuant to committee rules, witnesses are to 
all be sworn before they testify. So if you would please rise 
and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the whole truth, the truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that the witness answered in the 
affirmative.
    We would appreciate it if you would limit your verbal 
comments to 5 minutes, but we will be very generous with that. 
And, of course, your entire written statement will be entered 
into the record.
    Administrator McCarthy, you are now recognized for 5 
minutes.

   STATEMENT OF THE HON. GINA MCCARTHY, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Mr. Chairman, Ranking Member 
Cummings, and members of the committee, for the opportunity to 
testify today.
    It really is an honor to serve as Administrator of the U.S. 
Environmental Protection Agency. EPA's mission to protect 
public health and the environment is important to every one of 
us and our families, and I understand and appreciate the 
committee's keen interest in EPA's work.
    In order to best achieve our mission, one of the priorities 
for my tenure as Administrator has been embracing EPA as a 
high-performing organization. That means using our limited 
resources effectively, supporting our incredibly talented and 
dedicated workforce, so that EPA employees have the tools that 
they need to do the important work that we all ask of them 
every day, as well as ensuring that the Agency continues to 
rely on a faithful application of the law and science.
    The overwhelming majority of the approximately 15,000 EPA 
employees are dedicated. They are hardworking, they are 
professional public servants. I personally remain very proud of 
the EPA's achievement in protecting public health and the 
environment on behalf of the American people and of the EPA 
employees who work hard every day to make those achievements 
possible.
    But I also know that, over the last few years, there have 
been examples of a few EPA employees who have engaged in 
serious misconduct. While I firmly believe these employees are 
isolated examples, I believe we always can and must do better. 
To that end, we have made a number of changes to Agency 
management processes and procedures, and we will continue to 
strive for continuous improvement in this area.
    While not the subject of today's hearing, with the 
committee's encouragement, we have been working closely with 
our inspector general to enable the Agency to expeditiously 
take administrative action with regard to certain types of 
employee misconduct. The Agency and the OIG have now biweekly 
meetings to discuss the status of those investigations into 
employee misconduct, and we have agreed upon a set of 
procedures and timelines for information-sharing in certain 
categories of cases.
    These meetings and procedures have helped us facilitate the 
Agency's ability to take action more quickly upon completion of 
the OIG investigations. The Agency and the OIG sent a joint 
letter to the committee outlining this progress earlier this 
year.
    As I understand it, today's hearing is focused primarily on 
the events surrounding a misconduct situation which occurred in 
2011 at our Region 5 office in Chicago.
    While the misconduct that is at the root of this case 
occurred before my tenure as Administrator, it is my 
understanding that, in this particular case, a Region 5 
supervisor took action upon learning of the alleged misconduct 
of the individual and that the individual was subsequently held 
accountable and no longer works for the Agency.
    While there were some difficulties and likely some 
miscommunications among the offices in the region which may 
have created confusion among those involved, through the 
efforts of all involved, disciplinary actions were taken that 
resulted in the subject employee no longer being a Federal 
employee.
    I expect all managers to take appropriate and corrective 
disciplinary actions when they learn of potential misconduct by 
one of their employees, regardless of that employee's position 
at the Agency. Harassment of any kind in EPA workplaces is 
intolerable.
    In December 2014, I reaffirmed the Agency's commitment to 
prohibit harassment in the workplace through an email to the 
entire Agency. In January, I sent a second Agency-wide email 
reminding everyone of the OIG's important role in routing out 
waste, fraud, and abuse at the Agency, ensuring employees were 
aware of their ability to contact the OIG Hotline about a 
matter.
    The Agency also recognized the need to provide managers 
with clear guidance on what to do if they become aware of a 
matter--an alleged matter of harassment. Earlier this year, the 
first-ever comprehensive set of procedures evaluating 
allegations of harassment were developed and sent to the 
Agency's five units for bargaining.
    When those discussions are concluded, we will finalize the 
order that formalizes the Agency's very first procedure for 
addressing allegations of workplace harassment. The order will 
provide for uniformity and transparency about expectations 
related to processing complaints of harassment, procedures for 
reporting and responding to those complaints, and guidance for 
engaging in related factfinding and decisionmaking.
    We hope to conclude this process in the very near term. 
Having formal procedures to implement the Agency's anti-
harassment policy will provide the clarity we need for managers 
and employees in preventing and stopping harassment of any 
kind.
    In closing, I am honored to serve this agency and the 
people of the United States. I am proud of the great work 
accomplished every day by all of the employees at EPA, and I am 
excited about the progress we are making as an agency.
    With that, I look forward to taking questions.
    [Prepared statement of Ms. McCarthy follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Chaffetz. Thank you.
    I now recognize myself for 5 minutes.
    Do you believe the three witnesses that were here prior, do 
you believe they wereretaliated against?
    Ms. McCarthy. No, I do not.
    Chairman Chaffetz. Not in any way, shape, or form?
    Ms. McCarthy. You know, I think that--Mr. Chairman, I want 
to just confirm that harassment of any kind is not tolerated. 
You know, as a 61-year-old woman who started in a man's field--
--
    Chairman Chaffetz. No, no, no. This is not the question I 
asked you. I do not want to know about your background. I want 
to know if you think that they were retaliated against.
    Ms. McCarthy. No, sir.
    Chairman Chaffetz. We heard nearly 2 hours of testimony, 
and you believe that their statements are false.
    Ms. McCarthy. No, I did not indicate that.
    Chairman Chaffetz. Well, they said that they were each 
retaliated against, and you said that is not the case.
    Ms. McCarthy. I indicated that what I look at is the entire 
facts around the case. And, clearly, we had confusion in how we 
investigated it, but they were part of a large team that 
actually recommended removal of that employee, and they are no 
longer in Federal employ.
    Chairman Chaffetz. And part of the criticism----
    Ms. McCarthy. There was nothing to retaliate, and 
retaliation will not be tolerated.
    Chairman Chaffetz. Mr. Tuttle has a lower grade, less 
responsibility. You do not think that that was a result of some 
of his complaints against management?
    Ms. McCarthy. There were issues long before the issue of 
sexual harassment that arose----
    Chairman Chaffetz. What is----
    Ms. McCarthy. --about Mr. Tuttle's performance that is 
well-documented, and he still is a productive and valued member 
of EPA's----
    Chairman Chaffetz. What is your definition of ``sexual 
harassment''?
    Ms. McCarthy. It is the same as in the law, sir. And any 
harassment or bullying is not tolerated at EPA. This is not a--
--
    Chairman Chaffetz. When you say ``not tolerated,'' they 
have documented multiple cases, up to 10 times, of sexual 
harassment against this intern. Did you ever do----
    Ms. McCarthy. I think, sir, if you look at the----
    Chairman Chaffetz. Hold on. Hold on.
    Ms. McCarthy. --entire record, you'll see that these are 
regular performance issues that we have resolved separately. It 
is not a retaliation.
    Chairman Chaffetz. Was there any criminal referral?
    Ms. McCarthy. Was there any criminal referral? In this 
particular case----
    Chairman Chaffetz. The answer is no. And I want to----
    Ms. McCarthy. --I do not believe so.
    Chairman Chaffetz. You said that the definition of ``sexual 
harassment,'' you agree, is what is in law. So if there is--if 
it is illegal, the kissing, the touching, the inappropriate 
behavior is against the law, why did not you refer that for 
criminal prosecution?
    Ms. McCarthy. It was properly referred to the correct 
agencies within the----
    Chairman Chaffetz. Which agencies?
    Ms. McCarthy. The Office of Human Resources in that region.
    Chairman Chaffetz. That is within your own agency.
    Ms. McCarthy. Well, that is----
    Chairman Chaffetz. It is against the law. It is against 
your own policies and procedures. What these people testified 
to is they had to step up, go to the mat, and say--offering a 
reprimand is not sufficient. I want to know why somebody----
    Ms. McCarthy. The employee was removed, sir, not 
reprimanded. He was removed from service.
    Chairman Chaffetz. Not the--the problem is they had 10 
victims to get to that point.
    Now, I grant it, you were not the Administrator the entire 
time. I understand that. But this predator, the quote we heard, 
this was a predator who was fed a steady diet of interns. The 
first time it happened he should've been fired, and he 
should've probably been referred to the authorities for 
criminal prosecution. It happened 10 times, and you never did 
that.
    Ms. McCarthy. I am aware----
    Chairman Chaffetz. You still haven't done that on this 
person.
    Ms. McCarthy. I am aware that 11 years ago there was an 
issue raised. And it was handled appropriately, is my 
understanding----
    Chairman Chaffetz. Appropriately? He got a promotion. He--
--
    Ms. McCarthy. No. He was----
    Chairman Chaffetz. --continued to work there.
    Ms. McCarthy. He was carefully watched. The very minute----
    Chairman Chaffetz. Watched?
    Ms. McCarthy. --we had any indication----
    Chairman Chaffetz. Who was watching him?
    Ms. McCarthy. The very minute we had any indication of 
impropriety, which was the recent issue, we took prompt action. 
And in less than 2 months, that man----
    Chairman Chaffetz. You moved his cubicle four spaces away. 
You think that is appropriate?
    What do you say to the mother and father who sent their 24-
year-old to the EPA, she is starting her career, and she is 
harassed? Look at her statement. And you did the appropriate 
thing by moving her four cubicles away?
    Ms. McCarthy. We are doing everything we can to reenforce 
the policy in the law. We are developing procedures so there's 
never a question about this. And we are doing everything----
    Chairman Chaffetz. That is not good enough.
    Ms. McCarthy. --we can to protect every employee----
    Chairman Chaffetz. When somebody is sexually harassed, you 
send them to the authorities. You fire them.
    Ms. McCarthy. I did send them to the correct authorities.
    Chairman Chaffetz. You sent them to Human Resources, who 
wanted to reprimand him. You never did send him to the criminal 
referral.
    Ms. McCarthy. Human Resources recommended the same thing as 
every manager, which was to actually proceed to removal. The 
man is no longer in Federal----
    Chairman Chaffetz. That is not what initially happened. It 
was in his record that they had had 10 complaints, 10 sexual 
harassment complaints, against this gentleman, and he was 
allowed to continue to be there. And, as we heard testimony, a 
predator who was fed a steady diet of interns.
    Ms. McCarthy. I am aware of one complaint 11 years ago and 
the complaint that was just processed under my watch, which 
resulted in his removal from public service within 5 or 6 
weeks.
    Chairman Chaffetz. Did you fire him, or was he allowed to 
retire?
    Ms. McCarthy. He was allowed to retire because that is his 
right.
    Chairman Chaffetz. Yeah.
    Ms. McCarthy. Even if he were fired, he was allowed to 
retire.
    Chairman Chaffetz. Do you believe this intern who said that 
there was sexual harassment? Do you believe that her statement 
is true?
    Ms. McCarthy. Oh, I absolutely do, and that was----
    Chairman Chaffetz. Then why did not you refer it for a 
criminal referral? Why did not you give it as a criminal 
referral? If you believe that her statement is true and it was 
sexual harassment and that is a violation of the law and you 
allowed him to just retire, why did not you send that to the 
proper authorities?
    Ms. McCarthy. We took the appropriate action.
    Chairman Chaffetz. Do you think it is appropriate--do you 
think it is against the law to sexually harass somebody at 
work?
    Ms. McCarthy. I think it is not only against the law, but 
it is also against our policies. And we acted under the 
policies and the law when we--when it led to the removal of him 
from public office.
    Chairman Chaffetz. Did you let any of the law enforcement 
officers know?
    Ms. McCarthy. Mr. Chaffetz, I have two young daughters just 
about this woman's age.
    Chairman Chaffetz. I've got two young daughters, too----
    Ms. McCarthy. I appreciate the fact that----
    Chairman Chaffetz. --and I would never send them to the 
EPA. it is the most toxic place to work I've ever heard of.
    This person, this 24-year-old girl, she is starting her 
career; she is harassed over a 3-year period. And you admit 
that that is a violation of the law. Why did not you do the 
criminal referral?
    Ms. McCarthy. There was absolutely no information that I 
was aware of or that the people investigating this when this 
intern spoke up that there was any consistent harassment until 
the day she spoke up.
    I am not blaming her. She is in a very difficult situation 
that none of us want her to be in.
    Chairman Chaffetz. When she did speak up.
    Ms. McCarthy. But we can't know----
    Chairman Chaffetz. When she did speak up.
    Ms. McCarthy. --things that have never been--when things 
aren't spoken up.
    Chairman Chaffetz. Looking at the record now, are you going 
to do a criminal referral?
    You have got to ask somebody? You are the Administrator.
    Ms. McCarthy. Well, I am happy to move forward in 
whatever----
    Chairman Chaffetz. You are happy. I do not want you to be 
happy. I want you to do the right thing. He should have been 
fired, and, at the very least, you should do a criminal 
referral.
    How many times does this happen and you do not do a 
criminal referral? I mean, we had the case where we had to 
bring you up and talk about Mr. Jutro. So why is there such a 
toxic environment?
    I want to know why there's no criminal referral. You did 
not do it then, and you are not willing to do it now. Why?
    Ms. McCarthy. The individual could have. We responded 
appropriately under our policies in the law. If additional work 
is necessary or referrals, we are happy to do that.
    I did not make a decision that this shouldn't move there. I 
operated under the policies in the law to move forward. And, in 
fact, we expedited this in a way that Mr. Cummings has been 
asking us to do for a long time, which is quickly and 
decisively.
    Chairman Chaffetz. Do you believe you have an obligation 
under the law if you know of sexual harassment----
    Ms. McCarthy. No.
    Chairman Chaffetz. --to report that to the legal 
authorities?
    Ms. McCarthy. I am not aware of that obligation, no. I am 
aware that we have to follow it up and appropriately take steps 
that are appropriate for the circumstances, which is exactly 
what we did.
    Chairman Chaffetz. Your appropriate steps were to move him 
four cubicles away. Do you think that was appropriate?
    Ms. McCarthy. No, my step and the step that led to his 
removal is what I am referring to. I do not know what you are 
referring to in terms of four cubicles----
    Chairman Chaffetz. I've given you probably a dozen chances 
to say--and I will give you one more time before I recognize 
Mr. Cummings. If you have knowledge of criminal activity, do 
you believe you have an obligation to report that to law 
enforcement?
    Ms. McCarthy. I did not treat this as a criminal activity 
as opposed to an appropriate anti-harassment issue. That is how 
it is worked. That is how it is done.
    Chairman Chaffetz. And that is the crying shame, because 
you know what? Sexual harassment, it is a crime. And you need 
to take it more seriously. And it needs to go to the legal 
authorities. And that is the failing on your watch, on what you 
are doing.
    Ms. McCarthy. Well, part of the challenge, Mr. Chair, is--I 
am happy to talk to the woman involved, but part of the 
decision is that that woman chose a number of different paths 
she could take. It is always open to her. Frankly, I am not 
comfortable making decisions for a young woman who probably 
wants to move on, when I have already taken all of the actions 
I can do under my own authority.
    Chairman Chaffetz. You did not separate----
    Ms. McCarthy. And I am not sure you----
    Chairman Chaffetz. --him. You did not move him away.
    Ms. McCarthy. --should make that decision on her behalf 
either.
    Chairman Chaffetz. Anybody who looks at this case, you fell 
far short of that.
    I now recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Ms. McCarthy, I just want to see if we can't--you know, I 
do not know how much of the testimony you heard earlier, but 
you had three whistleblowers. Two of--well, all three of them 
are still in the room. And they were very, very--first of all, 
they were very courageous. They are people who came before us--
they did not have to do it, but they did--and they talked about 
problems that the chairman had just alluded to.
    And I want us to be very careful that we are not so busy 
being defensive----
    Ms. McCarthy. Yes.
    Mr. Cummings. --that we do not address the problem.
    I am always--I tell my staff that I am about the business 
of being effective and efficient, period. Life is short. And so 
I am trying to figure out how do we address these issues 
effectively and efficiently so that we are not in the situation 
that Mr. Harris found himself, some 15 years ago talking about 
these same things, and now he is back again today talking 
generally about these same things.
    Mr. Harris, the former EEO manager in the Office of Civil 
Rights, Region 5, testified about his experiences with what he 
believed to be retaliatory conduct by management. Specifically, 
Mr. Harris alleges that in 2011, as a result of investigating 
claims of sexual harassment, among other things, he was 
reassigned to his current position as EEO specialist.
    As a result of his experiences, he offered four 
recommendations for bringing about positive change to EPA's 
work environment.
    And, again, these are dedicated employees----
    Ms. McCarthy. Absolutely.
    Mr. Cummings. --simply trying to do their job. These are 
the kind of employees that ought to be up for awards and, you 
know, commendations.
    And I would like to get your take on each of his 
recommendations.
    Mr. Harris contends that the EPA counsel currently act as 
personal counsel for senior officials. He said this: 
``undermines Agency policies and Federal statutes enforced by 
EEOC.'' He recommends that this committee, ``examine the roles 
of the Agency general counsels with regard to allegations of 
Title VII violations and counsel's premature involvement in EEO 
complaints.''
    Madam Administrator, how do you respond to that 
recommendation?
    Ms. McCarthy. Mr. Cummings, any recommendation that a 
dedicated employee of EPA wants to make I am going to look at, 
period. But I will explain a couple of things.
    In our counsel office, we have a dedicated independent unit 
that specifically is there to support OCR and EEO complaints. 
They are independent of all of the other lawyers in the office 
and act that way.
    We also have an Office of the Inspector General, who I 
think this committee, above all others, will know is extremely 
independent. We do not always agree, but they do their jobs 
well, and they push us to get better all the time. And we need 
to respect that they are available.
    There's also an Office of Special Counsel that is available 
external to the Agency specifically as an independent body to 
support these issues.
    So there are layers of opportunities here that folks have, 
and I am happy to explain that to them. And if that is 
inadequate, I will listen to what else they might recommend 
that we do.
    Mr. Cummings. Well, I am going to go to Mr. Harris' other 
recommendations, but, you know, one of the things that I said 
to the chairman is that I really wanted the IG to look at all 
of this. Because I think----
    Ms. McCarthy. Yeah.
    Mr. Cummings. --perhaps, and you may not see it, but it 
sounds like there's a culture problem. At least in some of the 
regions, there's a culture problem. And that culture problem 
probably has developed long before you even got here. And 
sometimes that culture can be so thick and so--I mean, it is so 
deep that you almost have to dig it up to really effectively 
deal with it. And so I am hoping that we will have the IG look 
at this.
    Mr. Harris recommends--I am going to his second 
recommendation--that we have an ombudsman's office which should 
have, ``the utmost authority over personnel-related issues as 
they relate to Title VII violations.''
    Administrator, what is your view on the need for a regional 
ombudsman's office with regard to overseeing Title VII claims?
    Ms. McCarthy. I certainly will take a look at it. I can't 
say that I am familiar enough with the role of an ombudsman and 
how that interacts with other legal statutes and requirements. 
But I am happy to take it back, and we'll come back to you.
    Mr. Cummings. I would ask that--how soon can you get back 
to us on your thoughts with regard to that?
    Ms. McCarthy. If possible, maybe I could have our staff 
work together and develop a reasonable schedule that you'd 
think was appropriate.
    Mr. Cummings. Very well.
    Next, Mr. Harris suggested the Federal EEO employees 
currently do not have sufficient retaliation protection. So he 
proposes that the EEO devise, ``well-defined penalties for 
managers who retaliate against those who work to uphold an 
agency's EEO mission.''
    I believe that you will not tolerate retaliation. There is 
no Member of this body that would go along with people being 
retaliated against. As a matter of fact, all of us have worked 
very hard on both sides of the aisle to protect whistleblowers 
and those who might come before us from the agencies.
    But I just wanted to know your view on that.
    Ms. McCarthy. Well, certainly, we want to move forward to 
make sure our anti-harassment procedures are in place so that 
it avoids confusion. Because I think part of that really led 
really good individuals, as well as two managers, into a 
difficult situation. So we'll get those done, and that will 
help.
    But the idea that we would provide, sort of, uniform 
measures really negates our ability to look at each case on its 
own merits and give each employee, whether they are a manager 
or not, their due process, which is just as important to me, to 
make sure that we do thorough investigations and do this with 
due process.
    Mr. Cummings. Well, you'll never get me to argue against 
you with regard to due process. I think the problem is that, 
when people feel that they are walking up against brick walls 
when they try to get the word out and try to complain about 
situations--and, by the way, and trying to do their job that 
they are sworn to do--then, I mean, they wonder about any 
process.
    Ms. McCarthy. I think part of the issue that I am hearing 
is the sense that there's a double standard----
    Mr. Cummings. Yes.
    Ms. McCarthy. --in the Agency.
    Mr. Cummings. I am glad you said that.
    Ms. McCarthy. And, you know, I----
    Mr. Cummings. I am glad you said that.
    Ms. McCarthy. I am working hard to make sure that that is 
not the case. And that is what these policies and procedures 
are about.
    But, honestly, this has not been raised as an issue to me. 
And I am really surprised that people do not find that the OIG 
is independent and effective in looking at these issues.
    Mr. Cummings. Well----
    Ms. McCarthy. You know, I would welcome that.
    Mr. Cummings. Well, it goes back--now, Ms. Kellen--I do not 
know if she is still here. Ms. Kellen was telling me that she 
does have a relationship where she is able to talk to you.
    Ms. McCarthy. Yeah.
    Mr. Cummings. And one of the things that she said in her 
testimony--and I think it kind of summarized this whole 
hearing. She said the rank and file basically get screwed, and 
the management, some of the management folk--and she admitted 
that there are a lot of good management people now----
    Ms. McCarthy. Good.
    Mr. Cummings. --but that there are some that, even when 
they do the wrong thing, they get the bonuses, they get 
promoted. And there's something wrong with that picture. I 
mean, it seems like that would smack morale in the face big 
time. Would you agree?
    Ms. McCarthy. Absolutely.
    Mr. Cummings. So I want you to do me a favor. I want you 
to--I mean, I know you want to come before us--and I am almost 
finished, Mr. Chairman.
    I know you want to come before us, and I know you want to 
make sure you defend your agency. I got that. But I want you to 
also put some binoculars on or at least look through a high-
powered microscope and say to yourself, why would somebody who 
has been----
    Ms. McCarthy. Yeah.
    Mr. Cummings. --these employees, who have been here many 
years, given their blood, sweat, and tears, why would they even 
risk coming here if they did not have something legitimate, or 
at least they believed legitimate, to say?
    They are putting themselves on the line. And I am telling 
you, I could not be in your shoes and just disregard folks who 
put themselves in that position.
    Ms. McCarthy. Well, Ranking Member, the issue in Region 5 
that the chairman was referencing involves what I consider to 
be very valued and successful members of this agency. I am not 
disputing their value or my willingness to work with them as 
continued wonderful employees at the Agency.
    There was clearly a problem. The question I was asked was 
whether it was directly retaliatory, and my concern is that 
this committee needs to see the entire record.
    Mr. Cummings. I do want to see the entire--that is why I 
want to see the IG. That is why I want the IG to look at it.
    Ms. McCarthy. Yeah. So I think it is just important, and 
not because I am disputing how they feel----
    Mr. Cummings. Right.
    Ms. McCarthy. --but just what the facts are on the ground.
    And I will continue to work with these employees and 
others. Now that I know that there's a concern here, there will 
be no stopping our ability to work together. The unions are our 
partners. We are going to make sure that happens.
    Mr. Cummings. Now, either you can refer to the IG or we can 
refer to the IG, but----
    Ms. McCarthy. I am happy to request it. I am happy to, sir.
    Mr. Cummings. Will you do that?
    Ms. McCarthy. Yes.
    Mr. Cummings. And, Administrator, please hear me out.
    Ms. McCarthy. Yes.
    Mr. Cummings. Administrator, I do not know how long you are 
going to be in this position, but what we are trying to do is 
create a situation where we try to cure some of this----
    Ms. McCarthy. Absolutely.
    Mr. Cummings. --so that people coming behind us will not 
have to go through the same thing. I mean, it makes no sense.
    Ms. McCarthy. I agree. And I am certainly not trying to be 
defensive of the Agency, just defending due process for 
everybody involved. And I will work hard on this, Mr.----
    Mr. Cummings. And I want to make it clear, Mr. Chairman, 
we--and I know the chairman agrees with me--that we know that 
the vast majority of EPA employees are great people giving 
everything they've got. We've got that. But we do not want to 
ruin their spirit; we do not want to take away from them. We do 
not want to be forcing somebody out, like Mr. Tuttle, who--
almost in tears when I talked to him after the hearing. He does 
not want to leave, but he is being forced out. And you know 
what he said to me?
    And I hope you do not mind me sharing this, Mr. Tuttle.
    He said, ``You know, I am 63 years old. Everywhere I go, I 
am pretty much blackballed. I can't get a job.'' Why? Because 
he simply was trying to do his job. We are better than that. We 
are so much better.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    We are going to switch it up a little bit, since I haven't 
had a chance to evaluate some of the things.
    Administrator McCarthy, there's a memorandum prepared by 
senior Army Corps of Engineers employees detailing serious 
legal and scientific deficiencies with the waters of the United 
States rule were reported in the news this week.
    Are you aware of those memos?
    Ms. McCarthy. I have been reading about them, yes.
    Mr. Gosar. Okay. Are you aware of the legal and scientific 
deficiencies raised by the Corps in those memos?
    Ms. McCarthy. Just from what I've read. I have not seen the 
memo myself.
    Mr. Gosar. Mr. Chairman, I would like to submit the memos 
and the attachments into the record and share some of those 
concerns with you right now.
    Chairman Chaffetz. Hearing no concerns, without objection, 
so ordered.
    Mr. Gosar. An April 27, 2015, memo from Major General John 
Peabody, Deputy Commanding General for the Corps' Civil and 
Emergency Operations, states: ``The rule's contradictions with 
legal principles, general multiple legal and technical 
consequences that, in the view of the Corps, would be fatal to 
the rule in its current form.'' As is, the rule will be 
legally: ``vulnerable, difficult to defend in court, difficult 
for the court to explain or to justify, and challenging for the 
court to implement.'' The rule has abandoned principles of 
sound science, quote, and introduced indefensible provisions 
into the rule.
    A May 15, 2015, memo states: EPA's analysis underlying the 
rule is, quote, flawed in multiple respects. And the Corps' 
review could not find a justifiable basis to the analysis for 
many of the document's conclusions.
    Now, question. This rule was jointly issued by the EPA and 
Army Corps. Is that correct?
    Ms. McCarthy. That is correct.
    Mr. Gosar. Assistant Secretary of the Army Jo-Ellen Darcy 
testified before the House Transportation Committee in June 
that the Army Corps, quote, took these concerns and walked 
through them with the EPA before finalizing the rule.
    Is that your understanding?
    Ms. McCarthy. That is my understanding, yes.
    Mr. Gosar. Can you confirm that the EPA knew about these 
concerns before finalizing the rule?
    Ms. McCarthy. Since I am not privy to the exact language in 
the memo, I can't speak directly. But I can tell you that, in 
working with Jo-Ellen Darcy on this rule, she indicated that 
all of the concerns of the Army Corps had been satisfied. In 
moving forward with the final, I individually had conversations 
with her about the changes that the Army Corps was interested 
in making as the proposal moved through the interagency 
process, and I understood that everything had been fully 
satisfied.
    Mr. Gosar. Really? Huh.
    The EPA has publicly stated that it worked closely and 
carefully with the Army Corps to make sure, just as you said, 
sure that all concerns were addressed before finalization.
    In its April 27, 2015 memo, the Corps asserts that, to 
date, the fixes have not been adopted, so the flaw remains.
    Did the EPA adopt the Corps' recommended changes to the 
final version of the rule published on June 29, 2015?
    Ms. McCarthy. I wasn't privy to the exact interagency 
discussion within the Army Corps. I was privy with--I had a 
close working relationship, as did our staff, and that is what 
produced the final rule. And they understood that all concerns 
were satisfied.
    Mr. Gosar. Well, that is why these two documents come out 
here showing quite the contradiction, because they are saying 
they weren't met.
    Once again, I see the EPA saying that they are above the 
law, not only in rulemaking--and you are aware that there are 
numerous Supreme Court rulings that defy you actually going 
into this waters of the U.S. Application. You got serious 
comments in regards to the Army Corps of Engineers that you are 
supposed to team up with, and yet you sit here and tell me that 
we have made sure that it is all taken care of, but yet it is 
not.
    What am I supposed to believe when I hear just the 
testimony that you gave in front of the chairman and now I am 
looking at waters of the U.S.? It is just a blatant disregard 
for the rule of law.
    Do you have any comments in regards to that?
    Ms. McCarthy. I disagree with that, sir. I think it 
follows----
    Mr. Gosar. Oh, you can disagree all you want, but the facts 
are the facts, are they not, ma'am?
    Ms. McCarthy. They certainly are.
    Mr. Gosar. And so there's huge deficiencies with this rule, 
but yet you did not take the time to do it properly. What you 
did is you forced it down, just like everybody else does within 
this agency. And so, who cares about the rules?
    You know, I come from Arizona, where water is for fighting 
over, whiskey is for drinking. So these are very, very 
important to us, particularly, in the West.
    Ms. McCarthy. They are.
    Mr. Gosar. And they are overreaching beyond that.
    So I find it very defiant to have you sitting here and, in 
light of these two documents, stating that you actually worked 
with the Army Corps of Engineers, that it is ingrained within 
the rule. But it is not ingrained in the rule. And you 
perpetuated a bad rule that has legal consequences and has 
ramifications for States and water use throughout this country. 
Shame on you.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Ms. McCarthy, Administrator, I am here today 
to talk about your responsibility as the Administrator of this 
department.
    You have been in this position 2 years, correct?
    Ms. McCarthy. That is right.
    Mrs. Lawrence. And the incidents we are referring to 
happened before your position took over this department.
    Ms. McCarthy. That is my understanding.
    Mrs. Lawrence. So my question to you is--and I know that 
you understand this, because when you take on a position of a 
department head, you have a responsibility for ensuring that 
your employees are safe, that they work without discrimination. 
Title VII clearly outlines what that discrimination is.
    And one of the ways that you hold employees accountable is 
that you train them; that when you come into a department, that 
you have documented training that explains to all of your 
management staff that violation--that these are the laws, and 
you are held responsible for that.
    Can you explain to me how you, in these 2 years, have 
documented that your managers have this training and the 
accountability that happens as a result of that?
    Ms. McCarthy. I certainly can, and I am happy to provide a 
more complete report after the hearing.
    But we have had anti-harassment policy in place. People are 
trained in accordance with all of the policies. When an issue 
arises, one of the first things we look at is ensuring that 
they have been properly trained and that there will be no 
repeat of any violating behavior.
    You know, we take these issues incredibly seriously. And 
one of the things that is happened under my tenure is a 
continued increase in our training budget, not just for 
managers but for other employees, so that people can know what 
their rights are, know what the appropriate recourse is if they 
feel like they have had issues that arise that they are 
uncomfortable with or they do not understand.
    And I think we are going to keep trying to do the best we 
can to both document training but to increase training 
availability. It is been very difficult at the Agency to adjust 
to budget cuts, but the last thing I am going to do is 
disinvest in the employees of this agency.
    Mrs. Lawrence. Now, the training goes two ways. So you 
train your managers, but you also train the employees.
    Ms. McCarthy. Right.
    Mrs. Lawrence. I was disheartened to hear the testimony of 
the previous panel, where they felt they did not have anywhere 
to go. To me, what came to mind, if there had been proper 
training--you are required to post information. If you feel 
like you have been discriminated, there's a confidential number 
that you can call that is beyond your manager if you do not 
feel--are all those things in place?
    Ms. McCarthy. I believe they are, but I will go back and 
double check. I think I am distressed by the same issue. It 
seems as if they knew the Office of the Inspector General was 
available but did not feel comfortable or that they would be 
independent. You know, we are--and I will talk about that and 
figure out what else we do.
    But there is training. People know who to call. One of the 
things we are working on on anti-harassment is, while we have 
had a good policy, I think we haven't had the procedures in 
place to implement that consistently and effectively, which is 
why we just did that.
    I just asked that that policy be developed. What happened 
is the five unions wanted to bargain on the implementation of 
that policy. And that is where we are today. My hope is that 
that will provide added clarity, and we'll integrate that into 
a more rigorous training program, as well.
    Mrs. Lawrence. I want to be really clear. The question that 
was just asked by my colleague is about efficiencies in 
programs and procedures within EPA. I am the ranking member on 
Interior. EPA is extremely important to our government, to our 
environment, something I am very committed to.
    This whole hearing is about distractions, about waste of 
time and demoralizing employees that we need energized and 
committed to actually doing the job we hired them to do. It is 
unacceptable that we have 11 complaints put forth on the same 
issue about sexual harassment, about bullying. And, to your 
credit, 2 years in--but you must have a fierce commitment to 
policies, to making sure that any employee, if they feel like 
they've been discriminated against, that they know where they 
can go; that the IG--you do not wait for the employee to call 
the IG. You energize the IG to advise you.
    You need to do something above and beyond. You need to be 
creative, as the Administrator, how you are going to change 
this. Because I am holding EPA accountable to do what we hired 
them to do. It is a critical time in our country, with our 
environment and these questions on water, for us to be so 
distracted.
    This, to me, is so disappointing, that we have to spend 
this much time when we have valued--30 years' experience in EPA 
is something that we should be valuing. That employee should be 
so energized and integrated into the success of this country 
and doing the work for EPA.
    And, with that, I yield back my time.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentlewoman from Wyoming, Mrs. 
Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    And I certainly admonish you to listen to the chairman and 
the ranking member and the other members of this committee who 
have brought to your attention how serious this committee 
believes this issue is.
    With that, I, too, am going to switch gears. I want to talk 
to you about a couple of substantive issues related to the 
President's Climate Action Plan.
    Now, under his plan, the EPA has proposed two major rules 
on existing power plants and on new power plants. These rules 
affect listed species.
    Now, let's go to the Endangered Species Act, where any 
Federal agency that carries out a discretionary action that may 
affect a listed species or critical habitat must consult with 
either the Fish and Wildlife Service or NOAA Fisheries. The 
threshold is really low. It is any possible effect, including 
insignificant or beneficial effects. That is what triggers the 
consultation requirement in the Endangered Species Act.
    Now, let's turn back to the existing-source rule. The EPA 
just summarily concluded that the rule would have no effect on 
any listed species. In the new-source rule, the EPA did not 
even address compliance with the Endangered Species Act.
    My question is this: Will EPA consider whether its proposed 
new-source rule may affect any listed species or critical 
habitat?
    Ms. McCarthy. Well, Congresswoman, first of all, I am glad 
of the commitment to endangered species, and I share it. We 
will make sure that the final rules actually meet our 
obligation under the Endangered Species Act.
    Mrs. Lummis. Well, I hope that obligation includes a 
consultation. Because, with regard to the existing-source rule, 
every model EPA has released projects that multiple coal-fired 
power units will close if the rule is implemented. Now, among 
those are Big Bend Power Station and Crystal River Power Plant 
in Florida.
    Now, according to the Fish and Wildlife Service's Florida 
manatee recovery plan and a USGS study, the warm water that is 
provided by these plants is crucial to the existence of the 
Florida manatee. The plan states that about two-thirds of the 
manatees in Florida rely on these warm-water discharges for 
protection from the cold. The plan states that alterations to 
power plants will significantly affect the manatees' ability to 
survive cold temperatures.
    Many of the power plants in Florida even have manatee 
protection plans imbedded in their Federal Clean Water Act 
permits for water discharges. Now, that includes, like, Big 
Bend and others. The operator of Big Bend Power Station, Tampa 
Electric Company, has advised the Public Service Commission in 
Florida that your existing-source rule will force the company 
to shut down Big Bend.
    How did the EPA conclude that its existing-source rule will 
have no effect on endangered species if the EPA's own modeling 
and the Tampa Electric Company have both concluded that the 
rule will shut down generating units at this plant and 
eliminate the warm-water refuge for manatees?
    Ms. McCarthy. Well, Congresswoman, as you know, this issue 
has arisen during the proposal period for 111(d). We will 
certainly take a look at this comment, and we will abide by the 
law as we finalize the rule.
    Mrs. Lummis. Have you ever contacted the Fish and Wildlife 
Service with regard to the possible effects of the two power 
plant rules on endangered----
    Ms. McCarthy. I can only speak to my own knowledge, which I 
personally have not.
    Mrs. Lummis. Do you know if anyone else in the Agency has?
    Ms. McCarthy. I do not know the process that has been 
established by the Agency and the staff so far.
    Mrs. Lummis. Would you please provide to this committee 
information on whether and who, if anyone, contacted the Fish 
and Wildlife Service with regard to the possible effects of the 
two power plant rules on endangered and threatened species?
    Ms. McCarthy. Well, I know, Congresswoman, that when the 
rule comes out in final form, you will see this as a comment in 
response, and it will be fully responsive to your request.
    Mrs. Lummis. We will go now to the existing-source rule. 
What is the basis for finding no effect on the manatee under 
the existing-source rule? The overwhelming evidence is to the 
contrary.
    Ms. McCarthy. I can't answer that specific question any 
more directly than I just did, which is the folks are aware of 
the concern that is been raised, and they will address that 
concern, and we will make sure that when the final rule comes 
out it is consistent with our requirements under the Endangered 
Species Act.
    Mrs. Lummis. Would you provide to this committee also the 
basis for a decision?
    Ms. McCarthy. That will also, I am sure, be thoroughly 
discussed, but I will make sure that is the case as we look at 
the response to comment in the rule.
    Mrs. Lummis. Thank you, Ms. McCarthy.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    I now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. And I want 
to thank you especially for today's hearing. I think it is a 
very important hearing.
    And I want to thank Ms. McCarthy for coming and for the 
progress the Agency has made.
    Ms. McCarthy, when I became chair of the Equal Employment 
Opportunity Commission, sexual harassment was not even defined 
as sexual discrimination. We issued guidelines defining the 
words ``sex discrimination'' in the statute to include sexual 
harassment, and the Supreme Court later backed us up.
    The courts have not done the same with respect to unpaid 
interns. I was flabbergasted but understanding, how some courts 
interpreted law, to find that some courts have already found 
that unpaid interns are not covered by the word ``employees'' 
in Title VII of the 1964 Civil Rights Act. That means that the 
people, the whistleblowers who testified here today could not 
receive relief in the courts the way an employee of the Agency 
could under the statute.
    Mr. Cummings, our ranking member, has introduced a bill to 
correct this flaw in Title VII. He calls it the Federal Intern 
Protection Act. I hope that some of the Republicans on this 
committee who have expressed I think appropriate outrage at the 
harassment that went on here will join us as cosponsors to this 
bill.
    And I would like to ask you if you would support a bill to 
add or define interns as employees under Title VII of the 1964 
Civil Rights Act.
    Ms. McCarthy. While I can't speak directly to a legislative 
proposal, I can indicate to you that EPA strives to protect all 
of our employees from discrimination, and we hold our employees 
and our managers accountable for their actions.
    Ms. Norton. Now, let me ask the question more directly. 
Would you have your counsel look at the--since there has been 
repeated harassment of interns--and, by the way, this House and 
the Senate now, like most large employers across the United 
States, are replete with interns. This has widespread 
implications.
    Would you have your counsel look at the recently introduced 
Federal Intern Protection Act and indicate to this committee, 
to the chairman and the ranking member, whether you would 
support that act to prevent the harassment of interns in the 
future? Would you give us that in writing?
    Ms. McCarthy. I am happy to provide technical assistance on 
this. And I think, as you know, I personally and the Agency 
would support any effort to ensure that our employees are not--
--
    Ms. Norton. I appreciate that, Ms. McCarthy, because I can 
see that you want to get rid of this issue and are right do so.
    I wasn't here to hear from the first panel, but I've read 
their testimony, and I was particularly interested in the 
testimony of the whistleblowers and of Ms. Kellen of AFGE 
Council 238. In my own experience at EEOC, I've found that 
employees on the ground can be very helpful. That particularly, 
seems to me, might be the case here, where we are talking about 
managers.
    Ms. McCarthy, I can think of no one in the life of an 
employee, not even you, the head of the Agency, that has more 
power and authority over an employee than the direct supervisor 
or manager. That is why listening to these employees is, it 
seems to me, particularly important. And, of course, she 
describes what she calls a serious lack of accountability and 
transparency, she says, at EPA in particular.
    When a manager has a problem--you know, imagine having to 
file a Title VII complaint against your manager. I mean, that 
really takes a lot, even if the law covered interns. That takes 
a lot of gall. That is why proactive action would be most 
beneficial.
    She does state, Ms. Kellen, that there are tools and 
procedures currently to address management issues. So I would 
like to look at the existing tools and procedures to address 
management issues, since that is so far out of reach of the 
average employee.
    You have made some progress, and I am looking at these 
management issues for even further improvement. And employees 
are among those who will always offer suggestions. She says 
that it would be helpful to have the GAO conduct a study of 
what she calls bullying in the Federal sector. And she does not 
even list EPA alone.
    Now, understand that the word ``bullying'' here has real 
connotations. I mean, it may be if you bully a Federal employee 
that is about all you have to do in order to get your point 
across, and there's nothing she can do, even if it is a form of 
harassment.
    So I wonder if you would support the idea of a GAO study of 
bullying in the Federal sector by management employees?
    Ms. McCarthy. I would be happy to support an independent 
look at this. And, in fact, Congresswoman, I think we still 
have work to do within EPA. I mean, every agency has to 
continue to be diligent, but one of the things we have put on 
the table is much more concise and well-spelled-out procedures 
that managers need to follow and that employees can count on 
when these complaints come forward. We need to get that over 
the finish line, complete the review of the union, because we 
welcome their input on it. But we all have to keep struggling 
on this issue.
    And I am not claiming that EPA is above where any other 
agency is. Bullying happens at all levels whenever there is a 
power difference between one employee and another. And we have 
to constantly be as diligent as----
    Ms. Norton. And it is really that power difference I am 
talking about. The Agency employee may rarely see you but will 
see her supervisor, or SES, far more often.
    I wonder, because there was testimony that action by 
managers has not been fully investigated. Now, Ms. Kellen 
suggests something called a feedback loop, where employees 
could anonymously offer their opinions of how managers are 
performing their duties.
    Now, of course, that anonymous feedback could be of any 
kind, and I am not suggesting it is enough to get some kind of 
action taken against an employee. But this person who was 
guilty, it would appear, of repeated instances of sexual 
harassment, if employees could have anonymously reported that 
and if the head of the Agency knew that--others have gone on 
for much longer than I've gone on, including, you Mr. Chairman. 
If I could just get an answer.
    Chairman Chaffetz. Well, with all due respect, we are 
almost 3 minutes over. I am just--I just tapped.
    Ms. Norton. Could I just get an answer to this question 
then?
    Chairman Chaffetz. Sure.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. McCarthy. I will be as brief as possible.
    We do have an OIG Hotline, which is the most direct way for 
anybody to raise an issue.
    Ms. Norton. And that is anonymous?
    Ms. McCarthy. It is, yes.
    But more to your point, I am happy to talk to Ms. Kellen 
about any suggestion she has for how we can proactively address 
this issue and not wait until it has to go to a hotline.
    Ms. Norton. Thank you for your indulgence, Mr. Chairman.
    Chairman Chaffetz. Thanks.
    We'll now recognize the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I would like to begin by going back to the topic from my 
colleague from Wyoming. The U.S. Geological Survey, I am sure 
you are aware, has the manatee on the endangered list. And they 
rely on power plants as a source of warm water during the 
wintertime.
    And you had mentioned a moment ago that, to your knowledge, 
the EPA never contacted the U.S. Fish and Wildlife Service or 
National Marine Fisheries Service. Is that correct?
    Ms. McCarthy. No, sir, that is not what I indicated. I said 
that I have not personally had those conversations.
    Mr. Hice. So who has had those conversations?
    Ms. McCarthy. Well, the obligation of the development of 
the rule in addressing those issues falls to--I guess our 
Assistant Administrator at the Office of Air and Radiation 
would be the next one to look at this issue.
    Mr. Hice. You ``guess.'' So you do not know who is 
responsible?
    Ms. McCarthy. You know, I do not run the day-to-day work of 
the rule. As you know, we have received lots of comments on 
this rule. This is certainly on the radar screen, and I am 
confident that we will put out the rule in a way that addresses 
this----
    Mr. Hice. Well, it needs to be on the radar screen; this is 
the law.
    Ms. McCarthy. Absolutely.
    Mr. Hice. The law requires you to contact them, and you do 
not have any idea if they were contacted or not.
    Ms. McCarthy. I just said I did not participate in 
conversations myself. That is all I am----
    Mr. Hice. And you are also indicating that you do not know 
if anyone else did either, because you are saying you guess it 
might have been one department or another. So you do not know.
    Ms. McCarthy. All I know is that my staff and I are well 
aware that we have an obligation to meet the rules under the 
Endangered Species Act, and we will do that.
    Mr. Hice. Okay. But you do not know if those agencies were 
contacted.
    Ms. McCarthy. I honestly do not recall whether I've had 
that direct conversation. I may have, but it is----
    Mr. Hice. I am not talking about you. I am talking about 
the EPA in general. Did the EPA abide by the law----
    Ms. McCarthy. The EPA has to abide by the law on the final 
rule, and we will.
    Mr. Hice. Did the EPA abide by the law and consult with the 
U.S. Fish and Wildlife Service or National Marine Fisheries?
    Ms. McCarthy. I am happy to get back to you, as I 
indicated----
    Mr. Hice. So you do not know, is the answer.
    Ms. McCarthy. There are many comments that we receive that 
I do not follow directly up on. But I am----
    Mr. Hice. So are you saying yes or no or you do not know?
    Ms. McCarthy. I do not know.
    Mr. Hice. Okay. That is what I was trying to get to. All 
right. So you do not know if the law was upheld or not.
    Ms. McCarthy. I know that the law has to be upheld, and I 
know that happens when we issue the final rule, which has not 
happened yet.
    Mr. Hice. All right.
    Well, you realize that the EPA's proposed rule ultimately 
is going to shut down a number of coal-generated power plants.
    Ms. McCarthy. I remember in the Regulatory Impact Analysis 
there was an estimate of potential closings as a result of 
decisions the States might make as a result of that rule.
    Mr. Hice. There have been a number of those. One of them is 
in my own district.
    Ms. McCarthy. Okay.
    Mr. Hice. Plant Branch was closed down because of EPA 
regulations and so forth. And this----
    Ms. McCarthy. Which plant did you say, sir? I am sorry.
    Mr. Hice. Plant Branch in Milledgeville, Georgia, shut down 
because of the EPA regulations, and hundreds of jobs have been 
lost because of that. And the manatee, of course, not in my 
district but relies in other areas on the warm water generated 
here. And it just sounds to me, again, that the EPA is not 
abiding by the law.
    What would happen if a business decided that they were just 
not going to abide by regulations from the EPA? Would you 
ignore that?
    Ms. McCarthy. Not if it was called to my attention. And, 
certainly, EPA won't ignore the law either.
    Mr. Hice. Well, EPA has been ignoring the law, and it is 
not--do you believe that all coal plants should be shut down?
    Ms. McCarthy. I do not have--it is not--there's no belief 
system I have about coal at all, sir. All I do is enforce the 
law.
    Mr. Hice. You do not have a belief system?
    Ms. McCarthy. No.
    Mr. Hice. Do you believe that coal generates power?
    Ms. McCarthy. Yes, I--that is a factual issue.
    Mr. Hice. It is a factual issue. Do you believe that they 
should be shut down because they are coal-generated?
    Ms. McCarthy. I think they offer tremendous value to 
energy----
    Mr. Hice. That was not my question. I know they offer----
    Ms. McCarthy. No, I do not have any----
    Mr. Hice. --value because the offer energy.
    Ms. McCarthy. --belief as to whether they should be shut 
down or not shut down. I do not--that is not a belief system 
for me, sir. I appreciate the value that coal brings to our 
energy supply system and how valuable it is----
    Mr. Hice. You are having a difficult time understanding my 
question. I am asking, do you believe that coal plants should 
be shut down?
    Ms. McCarthy. I have no such belief that they should be 
shut down.
    Mr. Hice. Okay.
    Ms. McCarthy. I have no belief----
    Mr. Hice. Are you aware that EPA policies and regulations 
are skyrocketing the ability for coal-generated power plants to 
exist?
    Ms. McCarthy. I believe there are two things happening. One 
is there is a transition in the energy world, and coal is 
becoming less competitive because of inexpensive natural gas. 
And I believe that we are putting rules out that are related to 
pollution from those----
    Mr. Hice. Coal is becoming expensive because of the 
upgrades that are required by plants to uphold the regulations 
put upon them by the EPA.
    Ms. McCarthy. There are----
    Mr. Hice. My time has expired. I thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. McCarthy, Arthur A. Elkins, the inspector general for 
the EPA, testified a number of times about their frustration 
with cooperation from the EPA. As a matter of fact, he talked 
about how the EPA had inappropriately blocked his office from 
conducting some investigations that involved employee 
misconduct. He testified to this in September 2014 and, in that 
testimony, advised the committee that the EPA had asserted that 
there was a category of activity defined as intelligence, to 
which the OIG may have access only subject to the EPA's 
granting permission. He further stated that, in some cases, the 
EPA's obstruction had interfered with and, in some cases, 
fouled the investigations.
    There's other testimony by Patrick Sullivan from the OIG's 
office where he talked about other inappropriate activity 
taking place at the EPA in which the EPA employees in the 
Office of Homeland Security had been interviewing EPA employees 
and telling them not to tell the OIG, pulling EPA employees' 
emails and phone records, and searching information on 
employees' computers, among other things. And he said those, in 
fact, are investigations, and that is what they are doing. And 
the point is that the Office of Homeland Security does not have 
investigative authority.
    Now, this has gone on now for some time. In April, Mr. 
Elkins testified again and pointed out that the EPA confirmed 
to the Office of Inspector General that it would share the 
information that they had been seeking, both with regard to 
previous matters and on an ongoing basis, and that the Agency 
had not yet shared that information.
    Then, in June, apparently--and I do want to cite one other 
thing. There was a memorandum of understanding that the EPA 
entered into unilaterally with the FBI without informing the 
OIG that further impeded the OIG's ability to do their job.
    And then, earlier, in June, you finally agreed to turn over 
the information. And you also informed the OIG's office that 
you had rescinded the memorandum of understanding.
    Now, my question to you is, have you turned over all of the 
information from the investigations from the Office of Homeland 
Security?
    Ms. McCarthy. My understanding is that we have made 
tremendous progress into----
    Mr. Palmer. No, ma'am. This is a yes or no answer.
    Ms. McCarthy. I am trying to answer your question, sir.
    I do not believe that we were withholding information or 
that MOU indicated that we would be. However, I've addressed 
every one of Art's concerns, including rescinding that MOU, 
having----
    Mr. Palmer. You have rescinded the MOU?
    Ms. McCarthy. --direct contact with the staff, reaching an 
agreement with the FBI on how to integrate the OIG into all of 
the efforts that they are concerned about at our Office of 
Homeland Security so that Homeland Security can perform their 
programmatic functions and never ever be viewed by the IG or 
anyone as above the law, in terms of allowing the IG access to 
information they need to do their job.
    We have made great progress in that venue.
    Mr. Palmer. Well, you keep talking about not impeding the 
OIG's investigation, but that is not their opinion. In this 
April testimony, he said, in this particular case, the OIG's 
investigation was negatively impacted and delayed by the fact 
that these senior EPA officials did not notify the OIG about 
their knowledge of the underlying incidents.
    And my question again: Have you turned over the information 
from these investigations to the Office of the Inspector 
General?
    Ms. McCarthy. I am not sure I understand what this refers 
to, sir, but I do not want----
    Mr. Palmer. Okay. I will simplify it for you.
    Ms. McCarthy. --you getting the impression that we are 
withholding any information that the IG needs to do its job.
    Mr. Palmer. Reclaiming my time----
    Ms. McCarthy. And I think the IG understands that.
    Mr. Palmer. I will simplify it for you. Let me make it 
simple.
    Ms. McCarthy. Okay.
    Mr. Palmer. Have you turned over all of the information 
from the Office of Homeland Security to the OIG?
    Ms. McCarthy. As far as I know, the IG and the Office of 
Homeland Security are working collaboratively to ensure that 
the Office of the Inspector General can do its job while the 
Office of Homeland Security can perform its programmatic 
functions.
    Mr. Palmer. The reason I am pressing this----
    Ms. McCarthy. That is how it is supposed to work.
    Mr. Palmer. The reason I am pressing this is, throughout 
this period of time----
    Ms. McCarthy. Yes.
    Mr. Palmer. --you consistently offered to work with the 
OIG's office and did not do it. Okay? So I just want to know, 
are you going to do what you said you were going to do?
    And I appreciate the fact that you rescinded the memorandum 
of understanding.
    Ms. McCarthy. Thank you.
    Mr. Palmer. But we would like to know definitively that you 
are turning over the information that the Office of Inspector 
General has requested. And, if you have not, when will it be 
done?
    Ms. McCarthy. I have dictated that as an absolute 
requirement of our Office of Homeland Security. We met with the 
Federal Bureau of Investigation; we set up a process to ensure 
that is happening. And I have heard no further concern of the 
inspector general that information that he is aware of is being 
somehow withheld.
    Mr. Palmer. Okay. We'll follow up on that later.
    If the chairman will indulge me, I have one other question.
    Five years ago, armed agents from the EPA conducted a raid 
on a city wastewater treatment facility in Dothan, Alabama. 
What I would like for you to do, Ms. McCarthy, is provide to 
this committee a copy of the threat assessment that justified 
armed agents in body armor conducting a raid on a municipal 
facility.
    Mr. Chairman, I appreciate the additional time. Thank you.
    Chairman Chaffetz. Thank you.
    As we wrap----
    Ms. McCarthy. Mr. Chairman, can I just make----
    Chairman Chaffetz. Sure.
    Ms. McCarthy. --sure I know which incident he is talking 
about?
    I am aware of an investigation. I am unaware of any raid.
    Mr. Palmer. Okay. It is the city of Dothan, Alabama.
    Ms. McCarthy. Okay. Thank you.
    Mr. Palmer. Thank you very much.
    Chairman Chaffetz. We would appreciate your following up 
with Mr. Palmer on that.
    Ms. McCarthy. Okay.
    Chairman Chaffetz. As we wrap up here, I have just a few, 
sort of, cleanup questions here.
    Can you provide this committee the bonuses, if any, that 
Mr. Paul Bertram received over the last 10 years?
    Ms. McCarthy. I am happy to follow up on that, sir.
    Chairman Chaffetz. And Susan Hedman, could we also look at 
those for the past 10 years, as well?
    Ms. McCarthy. The Regional Administrator?
    Chairman Chaffetz. Yes. Bonuses----
    Ms. McCarthy. Certainly.
    Chairman Chaffetz. --for the last 10 years. We would 
appreciate that.
    Ms. McCarthy. Okay.
    Chairman Chaffetz. She was the person in charge with all of 
these incidents that we have been talking about, the sexual 
harassment incidents, not the other issues that were sort of 
off-topic. What is your assessment of her performance in this?
    Ms. McCarthy. In this instance?
    Chairman Chaffetz. Regarding the sexual harassment issues, 
the retaliation, et cetera.
    Ms. McCarthy. Well, I do not--I do not know what her direct 
involvement has been. I am aware of the full record, and I know 
that the employee in question basically left Federal service, 
which I think was the appropriate thing to do. I do not know 
her direct involvement in the retaliatory issues.
    Chairman Chaffetz. And I guess that is the concern. I mean, 
it is risen to the level that we are having congressional 
hearings about this. We have expressed concern about this. 
These problems keep happening.
    Ms. McCarthy. Generally----
    Chairman Chaffetz. And, you know, it is one thing when you 
get one person complaining; it is another thing when you get 
three. And their testimony is consistent. Their authenticity 
seems to be as real as it gets.
    Our professional staff have spoken to the victim here, one 
of multiple victims that were at the hands of Paul Bertram. And 
what is just sick and disgusting----
    Ms. McCarthy. Yeah.
    Chairman Chaffetz. --is that it was allowed to continue 
through years.
    And we have brought this issue to you before, about when 
somebody does this and they do look at it, I do not understand 
why it is not in their record so that the next time they go to 
get a bonus or a promotion or come to some conclusion, that 
somebody can't look back at this and say--I mean, first of all, 
it should never get to the second time, ever. But, in this 
case, we are talking about 10 times.
    Now, I respect the idea that you were not the Administrator 
the entire time. But it is your watch, and you have been there 
for a few years now. And we had a hearing about this earlier 
this year.
    Ms. McCarthy. Yes.
    Chairman Chaffetz. What specifically are you doing, not 
about issuing, ``Hey, here's our sexual harassment policy,'' 
which is important, but what are you doing to make sure that 
nobody but nobody is allowed to get a bonus or promotion if 
they participate in sexual harassment?
    And are you doing anything to look back into the record and 
find those people who have a serial problem with harassing 
women in particular? And it can happen to men, too, but the 
cases we have heard have been primarily towards young, entry-
level women.
    Ms. McCarthy. Yeah.
    Chairman Chaffetz. What exactly are you, as the 
Administrator, doing to get rid of those bad apples so we do 
not ruin somebody else's life? Because the atmosphere that we 
hear about today, it is still going on. I have no trust or 
belief that you have actually solved the problem.
    Ms. McCarthy. Well, you know, we have to be as diligent as 
we possibly can, because----
    Chairman Chaffetz. I know, but what is it? What are you 
doing?
    Ms. McCarthy. --one is one too many, and I understand that.
    I want to make it clear to you, Mr. Chairman, that we are 
not just putting another policy out. We are actually doing an 
implementation, procedures, so that the employees can know what 
it is, we can hold managers accountable for doing--for actually 
following those procedures.
    So we are working through that with the union because I 
understood that this issue has been raised. But, you know, 
we'll continue to be as diligent as we possibly can. We'll find 
out what we need to do to make it more comfortable for these 
women to come forward. This is a very difficult situation that 
I take very seriously.
    Chairman Chaffetz. I just do not hear the specifics. Here's 
what I want to hear: We are going to go through each and every 
personnel file, and anybody who has sexual harassment, we are 
going to go back and evaluate that, we are going to do criminal 
referrals where necessary, we are going to fire people who have 
participated in this habitually, and we are going to go through 
each and every one. It is going to take some time, but we are 
going to do that. And when it comes to our attention next time, 
we are going to get the inspector general involved, and we are 
going to take it very seriously so that everybody feels 
comfortable in their work environment at the EPA.
    That is the answer I am looking for, and you are nowhere 
close to that. Did I say anything that you would disagree with?
    Ms. McCarthy. You have not said anything I disagree with 
what--how you would handle it. My concern is making sure that 
we follow due process for the employees. That is equally 
important to me. Whether you are an employee or you are a 
manager, I am going to follow due process.
    Chairman Chaffetz. Nobody's going to argue against due 
process----
    Ms. McCarthy. Okay.
    Chairman Chaffetz. --but what we heard testimony in the 
first panel is, when they went through the due process--we had 
some brave people stand up and say, you know what? A reprimand 
ain't good enough here. You are going to have to do something 
more.
    Ms. McCarthy. But I want to make clear to you, Mr. 
Chairman, the managers in that situation absolutely agreed, as 
well. It provided an opportunity during----
    Chairman Chaffetz. That is not true.
    Ms. McCarthy. --the process for more women to come forward.
    Chairman Chaffetz. That is not true.
    Ms. McCarthy. That was the decision of the management, was 
to call for that gentleman's removal.
    Chairman Chaffetz. That is not true. Because the original--
the original recommendation was to move his cubicle four spaces 
down.
    Ms. McCarthy. Well----
    Chairman Chaffetz. And--no, no. Hold on. Fortunately, you 
had some people who came in and said, that ain't good enough, 
folks. And now they feel like there's retribution.
    Look, we do not need to rehash the whole case.
    Ms. McCarthy. No. I just wanted to say I couldn't agree 
with you more that we have to be serious and diligent. Let me 
go back and see what else the individuals or the unions would 
suggest, and we'll keep working through this issue.
    I just do not want to leave here with you thinking that I 
do not take these issues seriously, because we absolutely do. 
And I am going through not just policies and procedures, but we 
will do everything we can to follow up on the issues that were 
raised to you today.
    Chairman Chaffetz. I have----
    Ms. McCarthy. Had they been raised to me earlier, maybe we 
would be further along. But I respect the rights of every 
employee at EPA and the unions to come to you or anybody else 
with these issues. And I will not hold that against them. I 
will work with them.
    Chairman Chaffetz. I want to believe you. I just want to 
see the action. And I want you to----
    Ms. McCarthy. Yes, sir.
    Chairman Chaffetz. --follow up with this committee. We have 
jurisdiction over all of the Federal workforce. This is 
something that we are seeing not only at the EPA----
    Ms. McCarthy. I will do that.
    Chairman Chaffetz. --but other agencies, as well. And I 
think we need a clear definition of sexual harassment, sexual 
misconduct, and what are the consequences for that----
    Ms. McCarthy. And, Mr. Chairman----
    Chairman Chaffetz. --because it is happening government-
wide----
    Ms. McCarthy. --I am very happy that you are taking this 
seriously.
    Chairman Chaffetz. --and it is a problem.
    I do want to ask a last thing about the inspector general.
    Ms. McCarthy. Yes.
    Chairman Chaffetz. Do you think it would be appropriate or 
inappropriate--do you think it would be appropriate that, if 
you have a sexual misconduct or sexual harassment, to have that 
automatically referred to the Inspector General's Office?
    Ms. McCarthy. I am happy to talk to the inspector general 
about that, but that is----
    Chairman Chaffetz. No, I want you to talk to me about that.
    Ms. McCarthy. Well, part of that is the discussion of our 
implementation that is currently happening with the unions----
    Chairman Chaffetz. Why----
    Ms. McCarthy. --because we want these issues implemented.
    Chairman Chaffetz. Why not automatically refer this to the 
Inspector General's Office?
    Ms. McCarthy. It is--generally, this is not a criminal 
issue. It is an administrative procedure that goes to our 
Office of Human Resources.
    Chairman Chaffetz. Sexual harassment--sexual harassment is 
a crime.
    Ms. McCarthy. But we work with the IG on these issues. We 
do not----
    Chairman Chaffetz. No, you did not.
    Ms. McCarthy. --exclude them from----
    Chairman Chaffetz. You do not. You did not in this case. 
That is the problem. You did not refer it to the inspector 
general. You did not refer it to the criminal--to any criminal 
referral.
    I would think that you would work with the person who is 
claiming the sexual harassment and work with her to figure out 
the proper remedy. She complained multiple times. It is not as 
if she came forward once. She came forward multiple times.
    Ms. McCarthy. No--well----
    Chairman Chaffetz. So----
    Ms. McCarthy. --we do not need to rehash this, other than 
to recognize that we both share the same concern. And you have 
my assurance----
    Chairman Chaffetz. But you are in a position to do 
something about it.
    Ms. McCarthy. And I will. And I have.
    Chairman Chaffetz. But you did not. You did not.
    Ms. McCarthy. Well----
    Chairman Chaffetz. You did not. We had the conversation 
earlier.
    Ms. McCarthy. Yes.
    Chairman Chaffetz. We want to look at making sure--last 
question about the IG, still on that same topic.
    Ms. McCarthy. Yes, sir.
    Chairman Chaffetz. What information is the IG not able to 
access? In other words, to me, the IG should have unfettered 
access to the information that it wants. What exceptions are 
there?
    Ms. McCarthy. Well, in issues of national security, we just 
have to make sure that the appropriate individual receiving 
that information has the appropriate clearance.
    Chairman Chaffetz. Understood. Other than that----
    Ms. McCarthy. That is the agreement that was reached, and 
that is what we operate----
    Chairman Chaffetz. Other than that, the IG should have 
unfettered access, correct?
    Ms. McCarthy. I can't speak to whether it is unfettered. I 
know what my responsibility is, to make sure that they can do 
their jobs effectively and----
    Chairman Chaffetz. We had the inspector general come before 
this committee and said that your agency is not allowing them 
the access to the personnel or the information that they want. 
I want to know why not and what they shouldn't be able--who 
they shouldn't be able to talk to and what documents they 
shouldn't be able to see.
    Ms. McCarthy. I believe we are, but you can speak with Mr. 
Elkins directly. We have----
    Chairman Chaffetz. I have. Now I am asking you. What--this 
should be a simple question.
    Ms. McCarthy. It is. And I've answered the question, sir.
    Chairman Chaffetz. I do not think so. Should the inspector 
general have total access to all personnel and all information?
    Ms. McCarthy. They should have access that is appropriate 
for them to do their jobs and----
    Chairman Chaffetz. Okay.
    Ms. McCarthy. --and have the appropriate clearance.
    Chairman Chaffetz. Why are you qualifying----
    Ms. McCarthy. And they have that.
    Chairman Chaffetz. Should they have access--it is 
appropriate for them to do their job by having access to all 
the personnel----
    Ms. McCarthy. I just do not want----
    Chairman Chaffetz. --and all the information.
    Ms. McCarthy. I am not a lawyer. I just do not want to have 
you ask me a direct legal question and me pretend I am one, and 
I do not want to go down that road. I do not know----
    Chairman Chaffetz. When will you provide us an answer?
    Ms. McCarthy. --what the term ``unfettered'' means.
    Chairman Chaffetz. Can you provide an answer to me? Pick a 
date. What is an appropriate time for you to come back and 
answer me that question?
    Ms. McCarthy. Well, why do not we work with your staff and 
we'll make that determination----
    Chairman Chaffetz. Give me a date.
    Ms. McCarthy. --and I will do the best I can to meet that.
    Chairman Chaffetz. Give me a date where I say, 
Administrator, it is past the deadline. What is an appropriate 
date to get that back?
    Ms. McCarthy. I can explain to you, sir, how we have 
reached an agreement with both OHS and the----
    Chairman Chaffetz. I do not want you to have to negotiate.
    Ms. McCarthy. --and the FBI.
    Chairman Chaffetz. The inspector general----
    Ms. McCarthy. Well----
    Chairman Chaffetz. The IG Act is very clear.
    Ms. McCarthy. I am sorry, sir.
    Chairman Chaffetz. This is taking far longer than it 
should. I just want you to give me a date as to when you can 
respond to me. That is all I am asking.
    Ms. McCarthy. I've already responded that I believe we are 
providing them access to every information they need. And that 
is already happening, and there is a process for that. I had to 
protect the interests of the intelligence community. I've done 
that, and the IG can do their jobs.
    Chairman Chaffetz. Okay. I want you to give me a date as to 
when you will give me a full and complete answer as to what 
limitations you think there are on the inspector general.
    In my opinion, they should have total, complete access to 
all personnel and all of your records all the time. If there 
are exceptions to that, I need to know, I want to know what 
those are.
    And you said you are not an attorney. I am giving you time 
to--I respect that.
    Ms. McCarthy. Right.
    Chairman Chaffetz. I want you to take some time, get the 
answer right. We also have jurisdiction over the inspectors 
general, so we want to get this right, as well.
    What is an appropriate date? Do not tell me we are going to 
work with staff, because these continue on in perpetuity. Give 
me a date. I am letting you pick the date.
    Ms. McCarthy. Would it be okay if I ask my----
    Chairman Chaffetz. Sure.
    Ms. McCarthy. --attorney what an----
    Chairman Chaffetz. Ask him.
    Ms. McCarthy. --appropriate date might be?
    Chairman Chaffetz. Yeah.
    Ms. McCarthy. Okay.
    Is 30 to 60 days okay?
    Chairman Chaffetz. How about the end of August? Is that 
fair, by the last day of August?
    Ms. McCarthy. That sounds like 30.
    Chairman Chaffetz. Yeah. Is that fair?
    Ms. McCarthy. I would be happy do that.
    Chairman Chaffetz. All right. Thank you.
    Ms. McCarthy. And I apologize. I wasn't trying to confuse 
the issue. I just did not want to act like----
    Chairman Chaffetz. I want you to have the proper time to 
get to the right answer. So we will say the end of August.
    Ms. McCarthy. Thank you.
    Chairman Chaffetz. All right.
    Mr. Cummings.
    Mr. Cummings. Just very quickly, I just want to clarify 
some things, Ms. McCarthy, and I will be very, very brief.
    It is my understanding that the intern had been--the first 
time she came and notified anybody of this was in March of 
2011, although she had been being harassed at least a year, I 
guess, earlier.
    Is that right? Is that your understanding?
    Ms. McCarthy. I am aware of when she reported it and when 
the person was removed from----
    Mr. Cummings. Would that have been March 2011?
    Ms. McCarthy. --Federal service. Yeah.
    Mr. Cummings. Yeah.
    And there has been a little bit of confusion, because--and 
I wanted to straighten this out earlier, when the gentleman 
testified, Mr. Harris, because he talked about 10 statements, 
but I wanted to make sure.
    As I understand it, based on our review of the witness 
statements provided to the committee, we understand that EPA 
manager Paul Horvatin only knew of one incident of sexual 
harassment prior to the March 2011 incident, although there 
were witness--we have witness statements.
    Ms. McCarthy. Yes.
    Mr. Cummings. But as far as--we keep talking about----
    Ms. McCarthy. I think 11 years prior to----
    Mr. Cummings. --10 people being harassed.
    Ms. McCarthy. Yes.
    Mr. Cummings. I do not think that was clear.
    It is not your fault, Mr. Harris. I had meant to clarify 
that before.
    But the only thing I would say is this, Ms. McCarthy. I 
hope that you took the things that I said in the light----
    Ms. McCarthy. I do.
    Mr. Cummings. --that I said them--that I meant them. And I 
just want to see if we can resolve these issues.
    And I thought the points that the chairman and certainly 
the points that Ms. Norton made were just right-on. I mean, in 
some kind of way, we have got to be able to resolve these 
issues and create--and sort of memorialize----
    Ms. McCarthy. Yeah.
    Mr. Cummings. --the solution, as opposed to rehashing over 
and over and over again. And that is all we are trying to do.
    And we want to work with you, because I know that--I know 
you were about to tell the chairman in the very beginning about 
your own history, about your family and what you, I am sure, 
have seen in your life, as a woman being in all kinds of 
difficult situations. So we know you have the sensitivity. But 
now we have got to make sure that we bring all of that to bear 
so that people like the people who testified before us will 
feel that they do have an opportunity to get these things 
addressed.
    Finally, let me ask you this. I would appreciate it--and 
this is just a little personal favor--is that you at least meet 
the three people and just say hello to them, because they may 
never get this chance again, to meet the top person in the 
agency that they've worked so hard for. They are still in the 
audience, and I hope that you would at least meet them and 
thank them.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    As we wrap up, to the good men and women who work at the 
EPA, like I said, the overwhelming majority, they are good, 
honest, patriotic people working hard. You know, God bless you. 
They are important--there is important work to do.
    We also know that there are going to be bad apples. You get 
that many people together, there are going to be some bad 
apples. We want to work with the unions, with the employees, 
with the administration, with the Congress. Let's weed out 
those bad apples, hold them accountable. It will make 
everybody's life better in every way, shape, and form. And that 
is the spirit in which we gather here today.
    And I want to conclude with what I started with, to the 
Administrator. You have made yourself readily available to the 
committee and to other committees. You regularly testify before 
Congress. And, to that extent, we sincerely do appreciate it. 
So we thank you for being here today.
    And this committee stands adjourned.
    Ms. McCarthy. It is my honor, Mr. Chairman. Thank you.
    [Whereupon, at 12:27 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
